Audit Report




OIG-08-020
Audit of the Department of the Treasury Forfeiture Fund’s
Fiscal Years 2007 and 2006 Financial Statements


December 14, 2007




Office of
Inspector General
Department of the Treasury
                                         DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NER AL
                                                December 14, 2007


             MEMORANDUM FOR ERIC HAMPL, DIRECTOR
                            TREASURY FORFEITURE FUND

             FROM:                    Michael Fitzgerald /s/
                                      Director, Financial Audits

             SUBJECT:                 Audit of the Department of the Treasury Forfeiture Fund’s
                                      Fiscal Years 2007 and 2006 Financial Statements

             I am pleased to transmit the attached audited Department of the Treasury
             Forfeiture Fund (TFF) financial statements for Fiscal Years 2007 and 2006. Under
             a contract monitored by the Office of Inspector General, GKA, P.C. (GKA), an
             independent certified public accounting firm, performed an audit of the financial
             statements of TFF as of September 30, 2007 and 2006 and for the years then
             ended. The contract required that the audit be performed in accordance with
             generally accepted government auditing standards; applicable provisions of Office
             of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
             Financial Statements; and the GAO/PCIE Financial Audit Manual.

             The following reports, prepared by GKA, are incorporated in the attachment:

                      •   Independent Auditor’s Report on Financial Statements;
                      •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                          and
                      •   Independent Auditor’s Report on Compliance with Laws and Regulations.

             In its audit, GKA found the financial statements present fairly, in all material
             respects, the financial position of TFF as of September 30, 2007 and 2006, and its
             net costs, changes in net position, and budgetary resources, for the years then
             ended, in conformity with accounting principles generally accepted in the United
             States of America. However, GKA’s Report on Internal Control over Financial
             Reporting identified the following significant deficiencies, which were not
             considered to be material weaknesses:

                      •   Indirect Overhead Expenses of the National Seized Property Contractor
                          are not Recorded and Accounted for by the Fund to the Line Item Level
                          (Repeat Comment); and
                      •   Post Inventory Updates To SEACATS Not Performed Timely.
Page 2


In addition, GKA found no instances of reportable noncompliance with laws and
regulations tested.

GKA also issued a management letter dated November 6, 2007, discussing other
matters involving internal control over financial reporting and other operational
matters that were identified during the audit but were not required to be included in
the auditor’s reports. This letter will be transmitted separately.

In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. GKA is responsible for
the attached auditor’s reports dated November 6, 2007 and the conclusions
expressed in the reports. However, our review disclosed no instances where GKA
did not comply, in all material respects, with generally accepted government
auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Susan L. Barron, Audit Manager, Financial
Audits at (202) 927-5776.

Attachment
                 gka, P.C.                                       Certified Public Accountants | Management Consultants




                           Treasury Forfeiture Fund

                             ACCOUNTABILITY REPORT 

                                 Fiscal Year 2007

                                  DEPARTMENT OF THE TREASURY 

                                       WASHINGTON, D.C.





                                                                   Member of the American Institute of Certified Public Accountants


1015 18th Street, NW · Suite 200 · Washington, DC 20036 · Phone: 202-857-1777 · Fax: 202-857-1778 · WWW.gkacpa.com
                              Message from the Director

I am pleased to present the fiscal year (FY) 2007 Accountability Report for the Treasury
Forfeiture Fund. While highlighting the Treasury Forfeiture Fund’s (the Fund’s) financial
and operational performance over the past year, this report also focuses on some of the
significant investigative achievements of our participating law enforcement agencies this
year. FY 2007 was a milestone revenue year for the law enforcement bureaus participating
in the Treasury Forfeiture Fund, with earned revenue of $366 million from all sources as
compared to $257 million in FY 2006.

The continued high-impact performance of the Fund reflects the ongoing hard work of our
law enforcement bureaus as well as Fund management’s emphasis on major case initiatives,
asset forfeiture program training and a focused approach regarding our performance measure
which gauges revenue from high-impact cases. The mission of the Fund is to affirmatively
influence the consistent and strategic use of asset forfeiture by our law enforcement bureaus
to disrupt and dismantle criminal enterprise. It is our view that the greatest damage to
criminal enterprise can be achieved through large forfeitures; hence we have set a target level
of 75 percent of our forfeitures to be high impact, i.e., cash forfeitures equal to or greater
than $100,000. For FY 2007, our member bureaus exceeded the target with performance of
84.18 percent high-impact cash forfeitures.

For FY 2007, the Executive Office for Asset Forfeiture continued its priority emphasis on
training with conferences addressing the cutting edge of investigative and forfeiture practices
of our member bureaus. During FY 2007, we continued two training curricula initiated in
2006, “Post-Interdiction Currency Investigation and Forfeiture,” and “Investigation and
Forfeiture in Cases of Illegal Alien Employment, Smuggling and Trafficking.” We also
conducted the fourth seminar of the series, “International Issues Involved in Investigation
and Forfeiture.” Each seminar of this series focused on a specific geographic region of the
world with the 2007 seminar focused on Europe. The international series topics included
trade-based money laundering, the black market peso exchange, money services businesses,
new payment methods, and tracing money hidden off-shore. We continue to emphasize
training pertinent to the National Money Laundering Strategy as well.

The Treasury Forfeiture Fund continues in its capacity as a successful multi-Departmental
Fund representing the interests of law enforcement components of the Departments of
Treasury and Homeland Security. Member bureaus include the Internal Revenue Service’s
Criminal Investigation (IRS-CI), the U.S. Secret Service, Immigration and Customs
Enforcement (ICE), and Customs and Border Protection (CBP). The U.S. Coast Guard
continues its close working relationship with the legacy Customs bureaus.

We look forward to another successful year in FY 2008.


                                                     Eric E. Hampl, Director
                                                     Executive Office for Asset Forfeiture
                                                     U.S. Department of the Treasury
                                                     Table of Contents


Section I: Overview

    Profile of the Treasury Forfeiture Fund ...............................................................................1 

    Strategic Mission and Vision ...............................................................................................1 

    Case Highlights....................................................................................................................2 

    Program and Fund Highlights............................................................................................18 

    Program Performance ........................................................................................................19 

    Financial Statement Highlights..........................................................................................21 


Section II: Financial Statements

    Independent Auditor’s Report on Financial Statements ....................................................25 


    Financial Statements: 

       Balance Sheets .............................................................................................................27 

       Statements of Net Cost.................................................................................................28 

       Statements of Changes in Net Position........................................................................29 

       Statements of Budgetary Resources.............................................................................30 

       Notes to Financial Statements......................................................................................31 


Section III: Other Reports

    Independent Auditor’s Report on Internal Control over Financial Reporting...................48 

    Exhibit I
       Significant Deficiencies ...............................................................................................51 


    Independent Auditor’s Report on Compliance with Laws and Regulations......................54 


Section IV:

Required Supplemental Information........................................................................................56 


Section V:

Other Accompanying Information...........................................................................................58 

                                Treasury Forfeiture Fund
                              FY 2007 Management Overview


Profile of the Treasury Forfeiture Fund

The Treasury Forfeiture Fund (the Fund) is the receipt account for the deposit of non-tax forfeitures
made pursuant to laws enforced or administered by law enforcement bureaus that participate in the
Treasury Forfeiture Fund. The Fund was established in October of 1992 as the successor to the
Forfeiture Fund of the United States Customs Service. The Fund is a “special receipt account.” This
means the Fund can provide money to other federal entities toward the accomplishment of a specific
objective for which the recipient bureaus are authorized to spend money and toward other authorized
expenses. The use of Fund resources is governed by law, policy and precedent as interpreted and
implemented by the Department of the Treasury which manages the Fund. A key objective for
management is the long-term viability of the Fund to ensure that there are ongoing resources to
support member-bureau seizure and forfeiture activities well into the future. The emphasis of Fund
management is on high impact cases that can do the most damage to criminal infrastructure.

The Treasury Forfeiture Fund continues in its capacity as a multi-Departmental Fund, representing
the interests of law enforcement components of the Departments of Treasury and Homeland
Security. Our member bureaus include the Internal Revenue Service’s Criminal Investigation (IRS
CI), the U.S. Secret Service, Immigration and Customs Enforcement (ICE), and Customs and Border
Protection (CBP). The U.S. Coast Guard continues its close working relationship with the legacy
Customs bureaus and functions in a member-bureau capacity.

The Executive Office for Asset Forfeiture (EOAF), which provides management oversight of the
Fund, falls under the auspices of the Under Secretary for Terrorism and Financial Intelligence.
EOAF’s organizational structure includes the Fund Director, Legal Counsel, Assistant Director for
Policy and Assistant Director for Operations. Functional responsibilities are delegated to various
team leaders. EOAF is located in Washington, D.C., and currently has 20 full time equivalent
positions.

Strategic Mission

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus that participate in the Treasury Forfeiture Fund to
disrupt and dismantle criminal enterprises.

Strategic Vision

Fund management works to focus the asset forfeiture program on strategic cases and investigations
that result in high-impact forfeitures. Management believes this approach incurs the greatest damage
to criminal organizations while accomplishing the ultimate objective – to disrupt and dismantle
criminal enterprises.




                                         SECTION I – OVERVIEW                                       1
Case Highlights

The following case highlights are intended to give the reader an idea of the types of investigative
cases worked by the Fund’s law enforcement bureaus during FY 2007 that resulted in the seizure and
forfeiture of assets. Such cases as those profiled below are consistent with the Strategic Mission and
Vision of the Treasury Forfeiture Program, which is to use high-impact asset forfeiture in
investigative cases to disrupt and dismantle criminal enterprises.


Internal Revenue Service, Criminal Investigations (IRS-CI)
Department of the Treasury

Convicted in March 2007 of operating the largest automobile chop-shop on the East Coast,
Michael Pescatore sentenced to 11 years in prison and a forfeiture judgment of $12.5 million

Michael Pescatore, 42, was convicted in March 2007 of extortion and operating the largest
automobile chop-shop on the East Coast. As part of a plea bargain in March 2007, Pescatore agreed
to an 11-year jail sentence and a forfeiture judgment of $12.5 million. Reducing this forfeiture debt,
the Treasury Forfeiture Fund auctioned off the Pescatore family mansion, shown below, for $8.3
million.




     The 14,000 square foot mansion sits on five acres of Long Island’s Gold Coast. It includes two four-
     car garages, an indoor pool and spa, five bedrooms each with a bathroom, a living room with a
     fireplace, a dining room with a fireplace and two family rooms with fireplaces. Two of the bedrooms
     also have fireplaces.




2          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
“The house can gulp down 100 to 150 gallons of fuel oil in a single day and with
annual property taxes close to $70,000, between mortgage, utilities, taxes
landscaping and upkeep, the house easily costs about $250,000 a year to run.”
                                                Special Agent John Ricupero,
                                                IRS Asset Forfeiture Coordinator, New York




                               SECTION I – OVERVIEW                                          3
Michael Pescatore could have been a legitimate businessman, a first-generation American who went
to well-regarded St. Francis Prep and the first in his family to graduate from college. Instead, he
turned to a life of crime and lost it all. In one of the varied schemes used in the criminal chop-shop
enterprise, local detectives involved in the case discovered that thieves had stolen a Chevrolet
Avalanche luxury truck, a Cadillac DeVille DTS and a Mercedes Benz S500 from the valet parking
lot of an upscale Italian restaurant. The thieves carefully stripped the cars and dumped the frames
along a highway. The men then called 911 themselves to report the abandoned hulks. In the case of
the Avalanche, the men even followed the tow truck that hauled it away and paid a few bucks to the
guys in the garage to shrink-wrap the hulk in plastic to protect it. Following the trail, the detectives
found that all three of the frames were bought at auction by the same salvage company, Astra Motor
Cars, owned by Michael Pescatore. Astra sold the frames back to the thieves who then reassembled
the vehicles using the original parts they had removed earlier. Detectives later found out why one of
the thieves had taken such special care of the Avalanche truck, he was using it as his personal
vehicle. Astra’s paperwork showed that the cars were sold to fictitious people versus the thieves.

Astra did a bustling business in stolen airbags, taking in $10,000 to $15,000 a week in the mid
1990’s, paying thieves $200 for a set of airbags, reselling them for $1,200. But it was the arrogance
of Pescatore that struck the investigating detectives, later federally deputized in order to map the
multi-state criminal activities, offering the following examples of Pescatore’s personality: 1) If a
competitor outbid him at a car auction, Pescatore was known to pry the vehicle identification number
(VIN) off of the dashboard, reducing the car’s value considerably; and, once, Pescatore was
overseeing the redecoration of a store he owned when someone walked in and asked what happened
to the man who ran the store (previously). Lying, Pescatore said, “Didn’t you hear? The man has
cancer.” Then Pescatore asked the man if he’d like to make a donation to a fund set up for the
supposedly stricken man. After the visitor contributed $100 and left, a smiling Pescatore turned to
his workers and boasted that he ‘just made lunch money.’ It is not known whether they laughed or
not, but according to one detective Pescatore’s workers in the chop-shop ring complained that he did
not pay or treat them particularly well, and nearly every one of them cooperated in the investigation
against him.

       Reference material used for this article: Case information for this article is provided by the
       article: “From His House to the Big House,” dated April 3, 2007, by Sean Gardiner of the Village
       Voice.


Philip H. Bloom, a U.S. Citizen who owned and operated several companies in Iraq and
Romania, sentenced to 46 months in prison and ordered to forfeit $3.6 million for role in
bribery, fraud and money laundering related to reconstruction contracts in Iraq

On February 16, 2007, Philip H. Bloom, a U.S. citizen who owned and operated several companies in
Iraq and Romania, was sentenced to 46 months in prison and ordered to forfeit $3.6 million for
charges of conspiracy, bribery and money laundering related to reconstruction contracts in Iraq. The
case also involved: a former Lieutenant Colonel in the United States Army Reserves, Bruce
Hopfengardner, of Fredericksburg, Virginia, who was sentenced to 21 months in prison and ordered
to forfeit $144,500 for his role; Robert Stein, a former soldier with the U.S. Army assigned to the
CPA-SC as a Department of Defense contract employee; and numerous public officials including
several high-ranking U.S. Army officers.

From December 2003 through December 2005, Philip H. Bloom and others conspired to rig the bids
on contracts being awarded by the CPA-SC so that all of the contracts were awarded to Bloom. In
return, Bloom provided the public officials with over $1 million in cash, Sport Utility Vehicles
4          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
(SUVs), sports cars, a motorcycle, jewelry, computers, business class airline tickets, liquor, offers of
future employment with Bloom, and other items of value. In addition, Bloom laundered over $2
million in currency that Stein and his co-conspirators stole from the CPA-SC that had been slated to
be used for the reconstruction of Iraq. Bloom then used his foreign bank accounts in Iraq, Romania
and Switzerland to send the stolen money to Hopfengardner and other public officials in return for
the awarded contracts. In total, Bloom received over $8.6 million in rigged contracts.

On January 29, 2007, co-conspirator Robert Stein was sentenced to nine years in prison for related
charges of conspiracy, bribery and money laundering, as well as weapons possession charges, for his
role in the scheme. Stein also was ordered to forfeit $3.6 million.

       These cases are being investigated by IRS Criminal Investigations, the Special
       Inspector General for Iraq Reconstruction, U.S. Immigration and Customs
       Enforcement at the Department of Homeland Security, Army Criminal Investigations
       Division, the U.S. Department of State Office of Inspector General, and the FBI’s
       Washington Field Office in support of the Justice Department’s National Procurement
       Fraud Task Force.

Societe Generale Haitienne deBanque, S.A., “SogeBank” forfeiture of $2.9 million related to
drug trafficking

The IRS CI and the Drug Enforcement Administration (DEA) conducted an investigation into the
activities of drug traffickers using the Republic of Haiti as a transshipment point for drugs,
particularly cocaine, intended for distribution and sale in the United States. Evidence secured during
the investigation identified a Haitian national and one-time resident of the New York City area as one
of the drug traffickers. On numerous occasions from 1999 through 2003, the subject paid Haitian
officials to safeguard the arrival and unloading of cocaine in Haiti. After the cocaine safely arrived in
Haiti, the subject conspired with others to smuggle the cocaine into Miami and New York by way of
commercial aircraft. Proceeds from the sale of the cocaine were subsequently consolidated in Florida
and elsewhere and then smuggled back to Haiti where the subject used the proceeds to pay for
additional shipments of cocaine into Haiti destined for the United Stats and to make corruption
payments to Haitian National Police officials. The subjected deposited the proceeds from the sales of
cocaine into numerous bank accounts located in Haiti. He maintained control over these accounts,
which were held in his own name and the names of close friends, family members and a family-
controlled business. Approximately $2,897,550 was seized from a Bank of America account, held in
the name Societe Generale Haitiene de Banque, S.A., commonly referred to as SogeBank. These
funds were forfeited to the Treasury Forfeiture Fund on October 10, 2006.

Asha Ventures, LLC and Narayan, LLC agree to pay $1.5 million in lieu of forfeiture related to
conspiracy to harbor illegal aliens and conspiracy to launder money

Asha Ventures, LLC and Narayan, LLC were limited liability companies involved in the business of
owning and operating hotels. Through their agents, the two companies employed numerous illegal
aliens at hotels in London, Kentucky, and encouraged the aliens to remain in the United States. The
aliens were sometimes paid by checks made payable to fictitious cleaning companies. The checks
were then negotiated at the hotel upon which the checks were drawn and the aliens were then paid in
cash.


                                          SECTION I – OVERVIEW                                         5
Asha Ventures, LLC and Narayan, LLC each pled guilty to conspiracy to harbor illegal aliens and
conspiracy to launder money. On November 1, 2006, a judge signed the Final Decree and Order of
Forfeiture for $1,500,000 against Asha Ventures and Narayan, LLC.

Subject conspires to hide approximately $24.5 million in company income, structuring cash
transactions to convert corporate receipts into untraceable cash, forfeits $570,000

The subject of this case was involved in the operation of medical management companies in
Brooklyn and the Bronx. He was also one of eight defendants charged with conspiracy to hide
approximately $24.5 million in company income by using a series of shell companies, Long Island
bank accounts and structured cash transactions to convert corporate receipts into virtually untraceable
cash. The defendants carried out their scheme beginning in 1993 by transferring approximately $24.5
million in purported management fees received by various managed companies to a series of shell
company bank accounts set up solely to convert traceable funds to untraceable cash.

The shell companies were established by associates of the defendants. The associates deposited the
checks received from the defendants into Long Island bank accounts and then either structured the
cash withdrawals from the accounts in a manner designed to evade the filing of currency transaction
reports (CTRs) or falsified CTRs to disguise the true ownership and source of the funds. In
exchange, the associates received transaction fees between 8 and 12 percent of the total amount of the
converted funds. In a plea agreement, one of the defendants pled guilty to a violation of Title 18
USC 371 (Conspiracy). He acknowledged that he owned property that was subject to forfeiture as a
result of his conspiracy to violate Title 31 USC 5324 (Structuring.) The defendant consented to the
entry of a judgment forfeiting to the government the sum of $570,000. This amount was forfeited
and the funds deposited into the Treasury Forfeiture Fund.

President and Sole Owner of Brown Investment Services (BIS), Chesterfield, Virginia, forfeits
$700,336.55 related to Ponzi Scheme

In September 2006, an individual was indicted for violation of Title 18 USC 1343 (mail fraud) in
connection with a multi-million dollar Ponzi investment scheme, and possession of a firearm by a
convicted felon. The subject was the president and sole owner of Brown Investment Services
(“BIS”), a Virginia-based company in Chesterfield County. According to the indictment, beginning
around April 2006, the subject held seminars in the Richmond area to attract investors to BIS.
During the seminars, the subject and his employees told potential investors that BIS could guarantee
to double their investments every thirty business days. The subject claimed that he was an expert in
foreign currency trading on the Foreign Currency Exchange Market (FOREX) and told potential
investors that he would personally invest their money in the FOREX. Potential customers were told
that after the initial thirty business days of an investment, they could roll their investments over and
BIS would once again guarantee to double their investments. BIS and the subject would be
compensated for investment services with investment proceeds in excess of the investor’s guaranteed
returns.

As a result of the seminars, it was alleged that over 350 investors, including individuals, small
businesses, and churches, invested money through BIS. Based on guarantees and representations
made by the subject and his employees, customers invested approximately $8 million in BIS with the
understanding that these funds would be invested in the FOREX market. These funds were deposited
into a BIS bank account over which the subject exercised sole control and was the only authorized
signatory. The indictment alleged that the vast majority of the approximately $8 million in investor
6          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
funds was never invested in the FOREX market. Instead, the subject transferred $445,000 of the
money from the BIS bank account into his personal bank account, and then wired that money into a
personal FOREX trading account. Using approximately $2.9 million obtained from the investors, the
subject purchased approximately 28 luxury vehicles for himself and his employees. The indictment
alleged that he made approximately $469,000 in cash withdrawals and approximately $159,000 in
debit card transactions from investor funds. It was further alleged that he used investors’ money to
purchase more than $154,000 in jewelry and to pay BIS employees approximately $640,000 in
salaries. A total of $700,336.55 was seized and forfeited to the Treasury Forfeiture Fund.

Individual engages in money laundering while in prison after forfeiting over $2 million for drug
trafficking, forfeits another $1,074,850

In late December 1999, an individual was arrested and indicted in Florida on charges of conspiracy to
distribute 1,000 kilograms of marijuana in violation of Title 21 USC 846. The subject entered into a
plea agreement with the United States in which he agreed to plead guilty to conspiracy to distribute
1,000 kilograms of marijuana. As part of a plea agreement, the subject forfeited over $2 million
related to the case. While the subject was serving his prison sentence, an unrelated investigation
revealed evidence that he was involved in money laundering activity. Investigators followed leads
and determined that the subject, through other individuals, was laundering proceeds of his prior
trafficking operation. It was learned that drug proceeds were being held by others for safe keeping
and that one individual held more than $1 million for the subject and had received $100,000 from the
subject for doing so. After his release from prison, the subject admitted possessing approximately
$1,000,100 in drug proceeds that he subsequently turned over to investigators. The currency seized
from the subject totaled $1,074,850 and was subject to forfeiture pursuant to 18 USC 981. In April
2007, a Final Order of Forfeiture was signed forfeiting this sum to the Treasury Forfeiture Fund.

   IRS CI Receives National and State Awards for Historic Preservation Efforts 

                   Associated with Redstone Castle, Colorado 





On November 9, 2006, IRS CI was the recipient of the “Chairman’s Award for Federal Achievement
in Historic Preservation” by the Advisory Council on Historic Preservation (Advisory Council),
Washington, D.C. The Advisory Council recognizes examples of exceptional federal preservation
leadership, programs, and projects. Previously, on May 9, 2006, IRS CI, accepted the prestigious
                                        SECTION I – OVERVIEW                                       7
“State Honor Award” given by Colorado Preservation Inc. at the annual Dana Crawford Awards for
Excellence in Historic Preservation. This award was accepted on behalf of the many professionals
who worked side by side in the successful seizure, preservation, and eventual forfeiture of one of
Colorado’s most treasured historic sites, Redstone Castle.

Historical Background: Built in 1897, Redstone Castle was formally known as Cleveholm Manor,
home to John Cleveland Osgood, a coal baron and one of the nation’s richest men at the turn of the
20th century. Located in the Colorado Rockies along the Crystal River in the quaint town of
Redstone, Colorado, the historic property had since had a number of different owners prior to it being
seized by IRS CI in March 2003.

Background to Federal Forfeiture of Redstone Castle: A fifty-seven count indictment charged
seven people with committing federal crimes in connection with a fraudulent “high yield investment
scheme.” During the course of the investigation, authorities seized the Redstone Castle, a number of
racing vehicles, and over $17 million in cash from numerous bank accounts. The assets seized from
the defendants were purchased from moneys obtained from the illegal scheme or represented
proceeds from the scheme. In total, over 1,000 people were defrauded of approximately $56 million.
Some of the investors’ money was used to purchase the Redstone Castle properties.

As a result of the properties being forfeited to the United States, a federal judge authorized the sale of
the Redstone Castle, Carriage House, and Barn, along with an accompanying home at 410 Redstone
Boulevard, in Redstone, Colorado. On March 19, 2005, the historic Redstone Castle properties were
sold for $4.4 million.

Proceeds of the auction were used to compensate victim losses resulting from the multi-million dollar
investment fraud scheme.


Immigration and Customs Enforcement (ICE)
Department of Homeland Security

ITT Corporation pleads guilty to illegally exporting secret military data overseas, pays $100
million fine which includes a $28 million forfeiture

ITT Corporation, the leading manufacturer of military night vision equipment for the U.S. Armed
Forces, admitted sending classified materials overseas and will pay a $100 million penalty, which
includes $28 million forfeiture to the Treasury Forfeiture Fund. The $100 million penalty is one of
the largest ever paid in a criminal case. ITT Corporation is also the first major defense contractor
convicted of a criminal violation of the Arms Export Control Act.

Pursuant to a plea agreement, ITT pled guilty to one count each of export of defense articles without
a license and one count of omission of statements of material facts in arms exports reports.
According to the first count, ITT Corporation exported or caused to be exported defense-related
technical data to the People’s Republic of China, Singapore and the United Kingdom without having
first obtained a license or written authorization from the U.S. Department of State. Count two
charged that between April 2000 and October 2004, ITT Corporation left out material facts from
Arms Exports Required Reports. The omission of these material facts made the reports misleading.
ITT Corporation was aware that it was violating its export licenses for the pertinent equipment but
failed to take significant corrective action to stop the ongoing violations until shortly before it
informed the Department of State about the violations.
8           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
Golden State Fence Company executives sentenced for hiring unauthorized workers, company
forfeits $4.7 million

Golden State Fence Company, which builds fences for residential, commercial and military projects
throughout California, was first notified in writing in 1999 that at least 15 of its employees were
unauthorized alien workers. At that time, Golden State stated that they would terminate the
employees. However, in September 2004, it was determined that at least 49 Golden State employees
were unauthorized aliens. Three of the employees were among those listed in the 1999 notice as
unauthorized alien workers. In December 2006, the corporation pled guilty to hiring unauthorized
alien workers between January 1999 and November 2005. In March 2007, the Golden State Fence
Company’s president, Melvin Kay, and vice president, Michael McLaughlin, were sentenced for
these violations and the corporation was ordered to forfeit $4.7 million of proceeds generated by the
illegal hiring practices.

Mohammad Anvari-Hamedani, a Toledo doctor, 72, pleads guilty to 36 to 38 counts of money
laundering, illegally transferring funds to Iran, and tax evasion; forfeits $650,000

On November 20, 2006, a Toledo, Ohio doctor, Mohammad Anvari-Hamedani, 72, was sentenced to
60 days confinement and $1.15 million in fines and forfeiture for money laundering, illegally
transferring funds to Iran, and tax evasion. The investigation began in April 2002 when a search
warrant was executed at Anvari-Hamedani’s residence. The warrant was based on probable cause
involving the violation of the U.S. embargo on Iran. The investigation traced a total of $4 million
that was invested in Iran in violation of the embargo. The methods used to transfer the money to Iran
were worldwide in scope, using bank accounts located in the United States, Great Britain, the United
Arab Emirates (UAE) and Singapore.

Also uncovered during the investigation was the use of a “Hawala” scheme to transfer $169,000 to
Iran. “Hawalas” are a form of money-transmitting business, common in many Middle Eastern and
African countries, through which funds can be transferred between parties based on ties of kinship
and individual trust. There is not an immediate physical or electronic transfer of funds. The Hawala
scheme was employed after financial institutions became suspicious of large international money
transfers to the UAE.

Anvari-Hamedani was sentenced to a $500,000 fine, a $650,000 forfeiture, 60 days community
confinement, three years probation, and 500 hours of community service. The sentencing guidelines
for the offenses are normally 37 to 46 months incarceration. In this case, the sentencing judge
departed from the sentencing guidelines due to Anvari-Hamedani’s advanced age and medical
condition.

                            This investigation was conducted by ICE and IRS CI.




                                          SECTION I – OVERVIEW                                     9
Operation Gilded Cage - Bay area brothel owner pleads guilty to one count of money laundering
for role in large-scale human smuggling and prostitution scheme, forfeits $1 million

In November 2006, Anthony Gar Lau, 46, of San Bruno, California, entered a guilty plea and agreed
to forfeit $1 million to the government, the amount he acknowledged earning from his alien
harboring activities as the owner of a brothel called the Golden Flower Steam and Sauna Spa.

Lau and his partners in the Golden Flower Spa employed illegal alien women as prostitutes and used
the funds generated to pay the brothel’s operating expenses.

       Lau is among more than two dozen defendants charged in connection with Operation
       Gilded Cage, a massive investigation involving U.S. Immigration and Customs
       Enforcement (ICE), the Department of Justice Civil Rights Division, the FBI, the San
       Francisco Police Department, the IRS CI and the State Department’s Diplomatic
       Security Office.


Dominic Adu-Gyamfi guilty of operating an illegal money transmitting business, forfeits
$241,452

Pursuant to a plea agreement, Dominic Adu-Gyamfi, of Potomac Falls, Virginia, was sentenced to 12
months and one day in federal prison and two years supervised release and agreed to forfeit $241,452
seized by Immigration and Customs Enforcement (ICE) agents during raids conducted on his
business and residence late in calendar year 2005. Adu-Gyamfi pled guilty to a one-count
information charging him with 18 USC 1960, operating an illegal money transmitting business.

From December 2002 through the end of 2005, Adu-Gyamfi and others under his direction wire
transferred over $28 million from two business locations, one in Falls Church and another in
Woodbridge, to recipients in Thailand, Saudi Arabia, Ghana, England, Hong Kong, China, Cyprus
and India. Despite being directed by the Virginia State Corporation Commission (VCC) Bureau of
Financial Institutions to cease the transmission business, he continued his illegal business.

Christopher Bouchard, 34, guilty in conspiracy to commit money laundering, forfeits personal
residence, other real estate, several personal vehicles and agrees to a forfeiture judgment of
$1.3 million

In 2006, Christopher Bouchard, 34, of Manchester, New Hampshire, was convicted on federal money
laundering charges. The guilty plea followed Bouchard’s guilty pleas to charges of being a drug
enterprise leader, conspiracy to distribute cocaine, and conspiracy to distribute marijuana. The
crimes occurred between January 2000 and June 2005. During that time period, Bouchard directed
the transportation and shipment of cocaine and marijuana from Arizona to New Hampshire. The
federal money laundering charges are associated with the ill-gotten proceeds of his drug trafficking
operation.

As part of the plea agreement between Bouchard and the Federal Government, Bouchard agreed to
forfeit all of his interest in his personal residence, other real estate, and several vehicles including a
Mercedes Benz E 55. Bouchard further consented to the entry of a forfeiture judgment against him
in the amount of $1.3 million.


10          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
Donald Davis, 41, of Norwalk, Connecticut, is sentenced to a year in prison, three years of
supervised release, and forfeits $80,000 in lieu of forfeiture of his residence

Donald Davis pled guilty to one count of conspiring to distribute gamma butyrolactone (“GBL”),
which is commonly known as the “date rape” drug. According to documents filed with the Court in
May 2005, officers executed a search and arrest warrant at Davis’ Norwalk residence. Officers
seized several firearms, firearm ammunition, narcotics paraphernalia and significant quantities of
GBL stored at the residence. Officers also seized Davis’ personal computer of which a subsequent
search revealed that Davis had used the internet, including a bulletin board called “The Global
Connection,” to facilitate sales of the “date rape” drug. Davis admitted that he used his residence to
commit and facilitate the commission of the distribution of GBL thus subjecting his residence to
forfeiture under federal law. However, in lieu of forfeiture of his residence, Davis will pay $80,000
to the Treasury Forfeiture Fund.

                           ICE Returns Ancient Artifacts to Peru

ICE Returns more than 400 Pre-Columbian Artifacts to Peruvian Government

In June 2007, ICE officials returned 412 pre-Columbian artifacts to the Peruvian government that
were seized in 2005 following a joint investigation between ICE and the Broward, Florida Sheriff’s
Office. The pre-Columbian era refers to a period preceding the exploration of the Americas by
Christopher Columbus. The artifacts date as far back as 1500 B.C.




                                                            3,500 year-old clay vessel among the pre-
                                                            Columbian artifacts returned to the
                                                            Peruvian government.



Law enforcement officials discovered the artifacts during the execution of federal search warrants at
various South Florida locations. The artifacts were stolen from Peru and illegally smuggled into the

                                         SECTION I – OVERVIEW                                           11
United States. The seizure is believed to be one of the largest seizures of pre-Columbian artifacts
smuggled from Peru into the United States. The seized items included a clay vessel estimated to be
3,500 years old, a clay statue estimated to be 1,800 years old and a burial shroud linked to ancient
Peruvian royalty. All of the artifacts were examined and authenticated by Florida International
University professor Dr. Carol Damian and Dr. Ramiro Matos, Peruvian archaeologist from the
Smithsonian Museum in Washington, D.C.

        “The Peruvian government views with high regard the two years of diligent work
        invested in recovering these important pieces of the Peruvian people’s history.…..”

                                                    - Jorge E. Roman, Consul General of Peru in Miami


     ICE Returns $66,000 to Octogenarian Victim of Canadian Lottery Fraud and 

        Warns Public Not to Fall for Telemarketing “Get Rich Quick” Schemes 


                                            Project COLT 


Formed in the 1990s to combat telemarketing fraud in both countries, Project COLT includes the
Royal Canadian Mounted Police, ICE, the FBI and the U.S. Postal Inspection Service, among
other law enforcement and government agencies. The Project returns monies to victims of fraud.

Project Colt – Victim Bilked by Canadian Lottery Fraud – Gets Some Money Back

In July 2007, ICE Agents returned $66,000 to an 85-year-old Los Angeles woman victimized by
telemarketing con artists in Canada who promised her a $1.8 million lottery windfall. The money
returned to the retired school administrator was recovered by investigators as part of Project COLT
(Center of Operations Linked to Telemarketing). The ploy used on the Los Angeles senior citizen is
a common one employed by telemarketing fraudsters. She was advised that to obtain her lottery prize
she would have to forward money to pay the taxes on her winnings.

After sending multiple payments totaling more than $200,000, the victim told relatives about her
expected windfall and they alerted the local FBI. A Victim Assistance Representative for the FBI
passed the lead onto Project COLT investigators, who were eventually able to recover most of the
woman’s money. One of the victim’s payments was in the form of a $100,000 cashier’s check.
Officers with the Canada Border Services Agency intercepted that payment and Project COLT
investigators subsequently arranged for the issuing U.S. bank to cancel the check.

The money returned to the victim was what remained of a $100,000 wire transfer the victim made at
the direction of the scammers to a Canadian bank account. Project COLT investigators notified
security officials at the Canadian bank who froze the account.

      “This woman was very fortunate that investigators were able to get most of her money
      back. Unfortunately, that’s often not the case. While ICE and its enforcement partners are
      doing everything possible to stop this kind of fraud, the first line of defense is for people to
      be suspicious of anyone who calls and asks them to send money.”

                                                              - Robert Schoch, SAIC, Los Angeles, ICE

12          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
According to ICE, the fraudulent telemarketers pose as lawyers, government officials, police officers,
accountants, or lottery company officials. The victims are typically told they will receive a sum of
money varying from thousands to millions of dollars in lottery winnings. Investigators emphasize the
con artists are very believable and will persist until they bilk as much money as possible from their
victims. According to the victim’s nephew, the scam artists called his aunt virtually every day and
asked how she was doing. They acted like they were her best friends, exploiting her trust and playing
upon her desire to help her family out financially.

  Before sending any money to telemarketers, ICE urges the public to contact PHONEBUSTERS,
    Canada’s Anti-fraud Call Center at 1-888-495-8501. Additional information is available at
                                    www.phonebusters.com.


Customs and Border Protection (CBP)
Department of Homeland Security

CBP Officers Discover $78,000 in Vehicle Search, Forfeited

In April 2007, CBP officers obtained consent to search a vehicle in which $78,000 in US currency
was discovered. The sum was forfeited to the Treasury Forfeiture Fund in July 2007.

CBP Officers Discover $443,697 in Currency, Forfeited

In September 2006, CBP officers obtained consent to search a vehicle and discovered $443,697 in US
currency. The vehicle was seized along with the currency and the $443,697 was forfeited to the
Treasury Forfeiture Fund in 2007.

CBP Officers Discover $300,000 Hidden Compartments, Forfeited

In March 2007, CBP officers selected an individual for an outbound enforcement exam at the Detroit
Ambassador Border crossing. A vehicle inspection resulted in the discovery of concealed bags of US
currency hidden in vehicle compartments. The total amount of currency seized was $300,000 which
was forfeited to the Treasury Forfeiture Fund in June 2007.


                                    CBP Fights Drug Traffic

CBP Officers Seize 77 Pounds of Cocaine during an Outbound Vehicle Exam on Labor Day,
Arrest 29 Year Old Female

On Labor Day 2007, CBP officers at the Peace Arch Port of Entry seized 77 pounds of cocaine
during an outbound vehicle examination.

Officers working in the northbound traffic lanes discovered the cocaine concealed in a compartment
under the rear cargo section of a Ford Explorer destined for Canada. Examination of the vehicle
revealed numerous vacuum-packed cocaine-filled packages. The vehicle was also seized.



                                         SECTION I – OVERVIEW                                      13
                                                                            77 pounds of cocaine
                                                                            discovered     in    an
                                                                            outbound vehicle, 29
                                                                            year    old    Canadian
                                                                            female arrested.


Robbyn Blankinship, 29, a Canadian citizen who resides in Vancouver, British Columbia, was
arrested at the port. The cocaine has an estimated street value of over $1 million.

CBP Seize Marijuana-Embedded Bricks at El Paso Port

In late June 2007, CBP officers working in El Paso, Texas, seized 365 pounds of marijuana
concealed within molded concrete patio stones. The unusual seizure happened when a freightliner
tractor towing a flatbed trailer entered the cargo lot from Mexico. CBP officers performed an
intensive inspection on the load of concrete outdoor patio bricks and determined that they contained
packages of marijuana.




                                                                      Patio bricks broken open to
                                                                      reveal 312 bundles of
                                                                      marijuana concealed inside.




CBP Air and Marine Interdicts Semi-Sub Smuggling Vessel with an estimated $352 million in
Cocaine Onboard

In August 2007, a Jacksonville, Florida CBP aircraft participated in an operation that resulted in the
interdiction of approximately 5 metric tons of cocaine. CBP’s surveillance aircraft tracked a semi-
submerged smuggling vessel designed to avoid detection. Working with the U.S. Navy and US
Coast Guard, CBP’s Air and Marine crew located, tracked and coordinated the interdiction of a self-
propelled, semi-submersible vessel loaded with an estimated $352 million of cocaine.



14         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
                      Self-propelled semi-submersible tracked and seized with 5 metric
                      tons of cocaine onboard; street value: $352 million.




                             CBP Fights Human Smuggling 

                       Dangerous, Often Deadly to Desperate Aliens 


CBP Officers Find Three Smuggled Persons in Hot Truck Engine Compartment

In June 2007, CBP officers at the Otay Mesa, California passenger port of entry arrested a 44-year
old Mexican man after discovering three undocumented Mexican citizens hidden inside the engine
compartment of his Ford pickup truck.

The driver entered the port driving a white Ford F 250 truck at about 6:30 a.m. Inconsistencies in the
driver’s answers to questions resulted in his referral to a secondary lot for further inspection. At the
secondary lot, a human/narcotics dog alerted to the hood of the vehicle. Officers used a crowbar to
open the hood because it appeared to be wired shut. Once the hood was pried open, officers
discovered 2 females and a male within the engine compartment. The vehicle was seized by CBP.




     Three smuggled Mexican nationals discovered in the hot engine compartment of a Ford pick-up truck,
     attempting to enter the U.S. from Mexico. One of them, an adult female, sustained burns to her right
     arm, abdominal area and left leg during the attempt.


                                            SECTION I – OVERVIEW                                            15
U. S. Secret Service
Department of Homeland Security

United Bank for Africa PLC agrees to $5.3 million Forfeiture Related to Obstruction of
Criminal and Civil Investigations into Money Laundering

In September 2007, the Treasury Forfeiture Fund received a forfeiture deposit in the amount of
$5,334,331 from the United Bank for Africa PLC (UBA) relating to UBA’s obstruction, between
2000 and 2004, of the U.S. Government’s criminal and civil investigations into money laundering of
fraud proceeds through accounts held at UBA in the name of Zamora Nigeria Limited (Zamora). The
Agreement signed by the United States Attorney for the Southern District of New York in July 2007
provides that UBA will not be prosecuted for any crimes (except possibly criminal tax violations)
related to its participation in obstructing the criminal investigations. In a statement of facts that is
part of the Agreement, UBA acknowledged that it took the position, in response to inquiries made by
the U.S. Government in both civil and criminal investigations, that UBA and Zamora were unrelated,
independent entities. In support of that position, UBA intentionally created and then supplied to the
U.S. Government certain fake, backdated documents, which had the effect of substantially
obstructing the U.S. Government’s investigation. Additionally, the Agreement provides that UBA
would forfeit $5,334,331, representing proceeds of fraud laundered through the Zamora account at
UBA and that UBA will continue to cooperate with the U.S. Government.

U. S. Coast Guard
Department of Homeland Security

The U.S. Coast Guard continues its close working relationship with the legacy Customs bureaus and
functions in a member-bureau capacity. Fund management is working to gain reimbursement of
Coast Guard expenses incurred in regard to Department of Justice forfeitures as well. The Coast
Guard maintains a close working relationship with the Drug Enforcement Administration (DEA) of
the Department of Justice, assisting with drug boat interceptions on the high seas which are then
turned over to the Department of Justice for prosecution.

Bolivian-flagged Osiris II, a 130-foot Cargo Vessel, Intercepted: 800 Pounds of Cocaine, 55
Pounds of Brown Heroine and one MAX 10 Submachine Gun Seized

The crew of the United States Coast Guard Cutter Tahoma (USCGC Tahoma), working as part of the
Caribbean Corridor Initiative, an organized crime drug enforcement strike force, seized nearly 800
pounds of cocaine, 55 pounds of brown heroin and one MAX-10 submachine gun with a silencer
onboard the Bolivian-flagged vessel Osiris II on February 2007.

After successful coordination and cooperation between the Caribbean Corridor participating agencies
and the government of Bolivia, Coast Guard personnel boarded the vessel.




16         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
                                                                            USCGC Tahoma intercepts Bolivian
                                                                            Vessel Osiris II, seizes 800 pounds of
                                                                            cocaine, 55 pounds of heroin and a
                                                                            MAX-10 submachine gun.


Information for this article was provided by the U.S. Coast Guard article, dated February 13, 2007.


“Snow on the High Seas” – U. S. Coast Guard Cutter Sherman Seizes 21 Tons of Cocaine with
a Street Value of $300 Million

As reported in the Newsweek Web Exclusive article by Andrew Murr, on May 8, 2007, “it was like
something out of ‘Miami Vice.’” Under the cover of darkness, the U.S. Coast Guard Cutter Sherman
approached the Panamanian freighter Gatứn as it made its way through the waters off the Pacific
coast of Panama. Pulling alongside, Coast Guard Captain Charley Diaz turned on the Sherman’s blue
law enforcement lights and sent 20 of his crew aboard the 300-foot freighter. The ship’s alleged
master, Francisco Valdez-Gonzalez, appeared unusually hazy about the contents of the 12 cargo
containers on deck, so the search party decided to open them first. Stacked amid ceramic tiles inside
was 21 tons of cocaine, with a street value of $300 million, bound for Mexico and eventual
distribution in the United States.




                 The U. S. Coast Guard Cutter Sherman seizes 21 tons of cocaine from the
                 Panamanian freighter Gatứn with a street value of $300 million.



                                                 SECTION I – OVERVIEW                                                17
Program and Fund Highlights

The Treasury Forfeiture Fund is a “special receipt account.” Such accounts represent federal fund
collections earmarked by law for a specific purpose. The enabling legislation for the Treasury
Forfeiture Fund (31 U.S.C. § 9703) defines those purposes for which Treasury forfeiture revenue may
be used.

Once property or cash is seized, there is a forfeiture process. Upon forfeiture, seized currency,
initially deposited into a suspense account, or holding account, is transferred to the Fund as forfeited
revenue. Once forfeited, physical properties are sold and the proceeds are deposited into the Fund as
forfeited revenue. It is this forfeiture revenue that comprises the budget authority for meeting
expenses of running Treasury’s forfeiture program.

Expenses of the Fund are set in a relative priority so that unavoidable, or “mandatory” costs are met
first as a matter of policy. Expenses may not exceed revenue in the Fund. The Fund has several
different spending authorities. Each of them is described below.

Mandatory Authority

The mandatory authority items are generally used to meet “business expenses” of the Fund, including
expenses of storing and maintaining seized and forfeited assets, valid liens and mortgages,
investigative expenses incurred in pursuing a seizure, information and inventory systems, and certain
costs of local police agencies incurred in joint law enforcement operations. Following seizure,
equitable shares are paid to state and local law enforcement agencies that contributed to the seizure
activity at a level proportionate to their involvement.

It is a strategic goal of the Fund to emphasize and monitor high impact forfeitures. To make
significant forfeitures requires longer, more in-depth investigations. To this end, Fund management
emphasizes the use of mandatory funding authorities that fuel large case initiatives. These authorities
include the Purchase of Evidence and Information, expenses associated with Joint Operations,
Investigative Expenses Leading to Seizure, and Asset Identification and Removal Groups. In recent
years, funding provided to computer forensic investigative tools has yielded high impact results.

Secretary’s Enforcement Fund

The Secretary’s Enforcement Fund (SEF) is derived from equitable shares received from the Justice
Department’s forfeiture fund for work done by Treasury law enforcement bureaus leading to Justice
forfeitures. SEF revenue is available for federal law enforcement purposes of any Treasury law
enforcement organization or law enforcement bureau that participates in the Treasury Forfeiture
Fund. In FY 2007, the Fund allocated $18.3 million in SEF spending to the law enforcement
agencies. The actual expense for FY 2007 was $12.4 million.

Super Surplus

Super Surplus represents the remaining unobligated balance after an amount is reserved for Fund
operations in the next fiscal year. Super Surplus can be used for any federal law enforcement
purpose. The Fund declared a Super Surplus in the amount of $21.7 million for FY 2007. The actual
expense for FY 2007 was $ $27.5 million.


18         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
Program Performance

Strategic View

Fund management continues to focus on strategic cases and investigations that result in high-impact
forfeitures. We believe this approach affects the greatest damage to criminal organizations while
accomplishing the ultimate objective – to disrupt and dismantle criminal activity. To make
significant forfeitures requires longer, more in-depth investigations. To this end, Fund management
emphasizes the use of mandatory funding authorities that fuel large case initiatives including
Purchase of Evidence and Information, expenses associated with Joint Operations, Investigative
Expenses Leading to Seizure, Asset Identification and Removal teams and state-of-the-art Computer
Forensics capability.

In addition, the Fund continues to support record levels of sharing of federal forfeitures with the state
and local and foreign governments that contributed to the successful seizure and forfeiture activity of
the Fund. The Fund provided over $140 million toward equitable sharing expenses in FY 2007, up
from $85 million in FY 2006, representing nearly 40 percent of the regular mandatory expense
budget. The actual expense for FY 2007 was $47.9 million. The higher allocation level for FY 2007
also reflects the higher forfeiture revenue earnings for the year. These are critical resources afforded
by policy of the Treasury Forfeiture Fund to protect and preserve the valuable working relationships
between our federal law enforcement bureaus and the critically important state, local and foreign law
enforcement agencies that work with them in an investigative capacity day-in and day-out.

Strategic Mission and Goal

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by Treasury law enforcement bureaus to disrupt and dismantle criminal
enterprises. The goal of the Treasury Forfeiture Fund is to support the Department of the Treasury’s
national asset forfeiture program in a manner that results in federal law enforcement’s continued and
effective use of asset forfeiture as a high-impact law enforcement sanction to disrupt and dismantle
criminal activity. To achieve our mission and goal, the program must be administered in a fiscally
responsible manner that seeks to minimize the administrative costs incurred, thereby maximizing the
benefits for law enforcement and the society it protects.

Multi-Departmental Fund

The Treasury Forfeiture Fund continued in its capacity as a multi-Departmental Fund in FY 2007,
representing the interests of law enforcement components of the Departments of Treasury and
Homeland Security. FY 2007 posed some management challenges including continued oversight of
the new general property contract and increasing expense categories associated with higher revenue
levels. In addition, commensurate with the high revenue year, there were additional expenses
incurred by the bureaus. In the midst of this period of growth and change, the Fund’s family of law
enforcement bureaus continued their hard work of federal law enforcement and the application of
asset forfeiture as a sanction to bring criminals to justice.

FY 2007 continued a pattern of robust revenue years with regular revenue of $386.8 million from all
sources, a 36 percent increase over FY 2006. As we enter fiscal year 2008, the Fund remains
focused on support for strategic investigative initiatives that will have the greatest impact on national

                                          SECTION I – OVERVIEW                                        19
and international criminal enterprise including valuable training and investigative expense funding
which emphasizes high impact cases.


Performance Measure

In FY 2007, the Fund measured performance through the use of the following performance measure:
Percent of forfeited cash proceeds resulting from high-impact cases. This measures the percentage of
forfeited cash proceeds resulting from high-impact cases (those with currency seizures in excess of
$100,000). Focusing on strategic cases and investigations which result in high-impact seizures will
affect the greatest damage to criminal organizations while accomplishing the ultimate objective – to
disrupt and dismantle criminal activity.

Results

The Fund performance measure and result for FY 2007 is as follows:

                 Performance Measure                     FY 2006        FY 2007        FY 2007
                                                          Actual         Target         Actual

     Percent of forfeited cash proceeds resulting from   72.90%           75%           84.18%
     high-impact cases

A target of 75 percent high-impact cases was set for FY 2007. This is a fixed target for the Fund,
designed to afford our law enforcement bureaus the opportunity to undertake smaller seizure activity
that is important to the overall federal law enforcement mission. The final percentage for FY 2007
was 84.18 percent, well above target. This compares with our FY 2006 and FY 2005 performance of
73 percent and 81 percent, respectively. This achievement is excellent and reflects Fund
management’s longstanding emphasis on high-impact forfeiture strategies as well as the use of Fund
authorities to assist member bureaus with larger cases that may take longer or require additional
resources not otherwise available. This measure was put into effect in FY 2001.

This measure is calculated by dividing the total amount of forfeited cash proceeds from cases greater
than $100,000 by the total amount of forfeited cash proceeds for all cases.




20           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
Financial Statement Highlights

The following provides a brief explanation for each major section of the audited financial statements
accompanying this report for the fiscal year ended September 30, 2007.

These statements have been prepared to disclose the financial position of the Fund, and its net costs,
changes in net position, and budgetary resources, pursuant to the requirements of the Chief Financial
Officers Act of 1990 and the Government Management Reform Act of 1994 (GMRA). While the
financial statements have been prepared from the books and records of the Fund in accordance with
the formats prescribed by the Office of Management and Budget, the statements are different from
the financial reports used to monitor and control budgetary resources that are prepared from the same
books and records and are subsequently presented in federal budget documents. Further, the notes to
the financial statements and the independent auditor’s opinion and report on internal controls are also
integral components to understanding fully the financial highlights of Fund operations described in
this chapter.

Statements: Changes in Net Position

Follows are brief highlights from the Statements of Changes in Net Position for FY 2007 and 2006.

Net Position – End of Year. For FY 2007, the Net Position for the Fund at the end of the year, an
indicator of the future capability to support ongoing operations of the Fund, totaled $361.4 million
versus $236.8 million at the end of FY 2006. Both years closed with a strong and viable net position
with annual revenue reaching well past the forecasted $250.0 million program level each year.

Total Gross Non-Exchange Revenues. This line item on the Statements of Changes in Net Position
is the best indicator of regular “business-type” income of the account on an annual basis. Fund
management generally forecasts between $200.0 million and $250.0 million for the Fund from
regular seizure and forfeiture activities of our participating bureaus. For FY 2007, the Fund closed
with $366.0 million in Gross Non-Exchange Revenues versus a total for the FY 2006 closing of
$257.2 million, an increase of 42 percent over FY 2006.

Proceeds from Participating with other Federal Agencies. This line item on the Statements of
Changes in Net Position indicates revenue earned from the participation of Treasury Forfeiture Fund
law enforcement bureaus in the seizures leading to forfeiture of bureaus that participate in the
Department of Justice Assets Forfeiture Fund or with the forfeiture fund of the U.S. Postal Service
(Postal Service). It is noted that this category of revenue is recognized when received on deposit by
the Treasury Forfeiture Fund. Therefore, there is no accrual recorded on the Fund’s financial
statements for this category of revenue.

As of the close of FY 2007, Treasury Forfeiture Fund bureaus earned a total of $58.0 million in
revenue from participation in the seizures leading to forfeiture of the Justice and Postal Service
forfeiture funds as compared to a total of $14.1 million during FY 2006. A portion of this increase
reflects Fund management’s continued work with the Department of Justice to identify delays and/or
downward adjustments to percentages associated with Reverse Asset Sharing payments to the
Treasury Forfeiture Fund. This revenue affords Treasury management significant funding
flexibilities for our participating agencies as the authority is broad and not confined to funding
program costs but can be used for any law enforcement purpose of our participating bureaus.

                                         SECTION I – OVERVIEW                                       21
Significant projects will continue to be funded in FY 2008 if anticipated revenue is received early
enough in the fiscal year.

Cost of Operations. For FY 2007, the Cost of Operations totaled $153.5 million, up from $141.3
million in FY 2006. The cost of operations has increased with the higher revenue level as expected.

Investment Interest Income. The Fund is authorized to invest cash balances in Treasury securities.
As of September 30, 2007, investments totaled $928.1 million, up from $672.2 million invested as of
September 30, 2006. Given the higher investment balance and somewhat higher interest rates on
Treasury securities over prior years, investment income totaled $37.5 million in FY 2007 as
compared to $26.8 million in FY 2006.

Equitable Sharing with State and Local Governments, and Foreign countries. Each year, the
Fund pays tens of millions of dollars to state and local law enforcement agencies, and foreign
governments, for their participation in seizures that lead to forfeitures of the Treasury Forfeiture
Fund. State and local law enforcement agencies can use these resources to augment their law
enforcement budgets to fight crime in their jurisdictions. Without these funds, budgets of the local
municipalities would be taxed to provide these important resources or the need would go unmet.
During FY 2007, the Fund shared a total of $32.7 million with state and local law enforcement
agencies, and another $0.5 million with foreign countries. This compares with $81.3 million shared
with state and local law enforcement agencies during FY 2006, and another $0.7 million with foreign
countries in FY 2006.

Victim Restitution. During FY 2007, the Fund paid restitution to victims the amount of $4.9
million as compared with $1.3 million in FY 2006.

Summary of Statements of Changes in Net Position. The Fund closed with a strong net position in
FY 2007. Management will continue to emphasize high-impact case by participating law
enforcement bureaus. The FY 2007 performance with forfeiture revenue earnings of over $386.8
million from all sources and a high rate of high-impact cases is truly a credit to the dedicated law
enforcement personnel of our participating law enforcement bureaus.

Statements: Net Cost

Costs of the Forfeiture Program – Intra-governmental. After revenue is applied toward policy
mandates such as equitable sharing, shown in the Statements of Changes in Net Position as negative
revenue or applied non-exchange revenue, the remaining financing supports the law enforcement
activities of the Fund and pays for the storage of seized and forfeited property and sales associated
with the disposition of forfeited property.

On the Statements of Net Cost, the Net Cost of Operations increased to $153.5 million in FY 2007,
up from $141.3 million in FY 2006.

Intra-governmental Costs less Secretary’s Enforcement Fund and Super Surplus Expenses.
This net figure represents the amounts incurred by participating bureaus in running their respective
forfeiture programs. Secretary Enforcement Fund Expenses generally represent expenses that while
key to the law enforcement bureau are not costs of running the forfeiture program itself.

National Seized Property Contract. One of the largest program costs of the Fund is the storage,
maintenance and disposal of real and personal property. During FY 2007, general property was
22         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
maintained by VSE Corporation and real property was maintained by EG&G Technical Services,
both contracts of the Department of the Treasury. In FY 2007, expenses of these two contracts
totaled $46.6 million as compared to expenses of the two contracts in FY 2006 of $52.7 million.

Statements: Balance Sheet

Assets, Liabilities and Net Position

Total assets of the Fund increased in FY 2007 to $1.1 billion, up from $863.7 million in FY 2006, an
increase in asset value of 31 percent. If seized currency, which is an asset in the custody of the
government but not yet owned by the government, is backed out of both figures, the adjusted total
assets of the Fund increased to $584.0 million in FY 2007, up from $399.0 million in FY 2006.
During FY 2007, total liabilities of the Fund increased to $770.4 million, up from $626.9 million in
FY 2006.

The Cumulative Results of Operations, i.e., retained earnings, increased at the end of FY 2007 to a
total of $361.4 million, up from $236.8 million at the end of FY 2006.

Financial and Program Performance -What is needed and planned. OMB Circular A-136,
Financial Reporting Requirements, requires that agencies include an explanation of what needs to be
done and what is being planned to improve financial or program performance.

Auditor’s Findings

FY 2007 Audit. The Fund’s independent auditors have given the FY 2007 financial statements an
Unqualified Opinion with no material weaknesses in the accounting for the Fund’s financial
statements. One long-standing Significant Deficiency is carried forward regarding the recording of
indirect overhead expenses of property to the line item level, and one new Significant Deficiency is
identified regarding the timeliness of post-inventory updates to SEACATS, the Fund’s seized and
forfeited property inventory system.

Repeated Significant Deficiency: One Significant Deficiency remains regarding the recording of
indirect overhead expenses of property to the line item level. This is a long-standing condition that
Fund management has worked diligently to resolve for all categories of property.

New Significant Deficiency: In fiscal year 2007, one new Significant Deficiency was identified by
the auditors of the Fund’s financial statements, associated with the Fund’s inventory tracking system,
SEACATS which is owned and maintained by CBP. Following the physical inventory exercise
conducted in July 2007, SEACATS was not updated in a timely manner to reflect reconciling issues
identified during the inventory exercise.

Management’s Plan to Resolve Significant Deficiencies

Repeat Condition: The new General Property Contract was awarded late in FY 2006 and
accounting for direct and indirect costs to the line item level is stipulated in the contract document.
As of early November 2007, the new General Property Contractor is in the process of testing the
accounting methodology that will capture indirect costs of the General Property Contract to the line
item level. Management anticipates that this condition will be materially resolved for FY 2008.


                                         SECTION I – OVERVIEW                                       23
New Condition: The new General Property Contractor has assured Management that SEACATS
has been updated and that all issues from the 100% physical inventory reconciliation have been
resolved. Subsequent changes to SEACATS are made daily, each evening Monday through Friday,
in accordance with applicable disposition orders.

Management anticipates that all significant deficiencies of the Fund’s financial statements will be
resolved in FY 2008.

Summary of Financial Statement Highlights

Net Position. To summarize, Fund management concluded a highly productive FY 2007 “in the
black,” with the necessary resources to commence the business of the asset forfeiture program for FY
2008. Fund management expects to declare a Super Surplus from FY 2007 operations and will work
to recognize the hard work of our participating bureaus in the allocation of these resources.

A Look Forward


Fund management will continue to work with our large and diverse array of federal law enforcement
bureaus as they undertake increasingly sophisticated methods and global effort to secure the financial
and commercial markets of the nation and the world given the interdependence of financial systems.
In addition, our bureaus support immigration enforcement that is designed to identify illegal
smuggling to deter its impact on the nation’s financial infrastructure and terrorism initiatives and to
ensure that human smugglers do not harm unsuspecting victims keen on seeking a new if illegal start
in the United States.      Emphasis will continue to be placed on ever-evolving state-of-the-art
investigative techniques, high-impact major case initiatives and training to support these areas of
emphasis. This has and will continue to be the key to the growing success and law enforcement reach
of the Treasury Forfeiture Fund.

Limitations of the Financial Statements. As required by OMB Circular A-136, Fund management
makes the following statements regarding the limitations of the financial statements:

•	   The financial statements have been prepared to report the financial position and results of
     operations of the entity, pursuant to the requirements of 31 USC § 3515(b).

•	   While the statements have been prepared from the books and records of the entity in accordance
     with the formats prescribed by OMB, the statements are in addition to the financial reports used
     to monitor and control budgetary resources which are prepared from the same books and records.

The statement should be read with the realization that they are for a component of the U.S.
government, a sovereign entity. One implication of this is that liabilities cannot be liquidated without
legislation that provides resources to do so.




24          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
     SECTION II 


FINANCIAL STATEMENTS 

gka, P.C.
                                                           Certified Public Accountants | Management Consultants



1015 18th Street, NW                     Independent Auditor's Report on Financial Statements
      Suite 200
  Washington, DC
        20036               Inspector General
                            United States Department of the Treasury
   Phone: 202-857-1777 

    Fax: 202-857-1778 
     Washington, D.C.
 Website: www.gkacpa.com



                            We have audited the Principal Statements (balance sheets and the related statements of
                            net cost, changes in net position, and budgetary resources, hereinafter referred to as
                            “financial statements”) of the Department of the Treasury Forfeiture Fund (the Fund)
                            as of and for the years ended September 30, 2007 and 2006. These financial statements
                            are the responsibility of Fund Management. Our responsibility is to express an opinion
                            on these financial statements based on our audits.

                            We conducted our audits in accordance with auditing standards generally accepted in
                            the United States of America; the standards applicable to financial audits contained in
                            Government Auditing Standards, issued by the Comptroller General of the United
                            States; and, applicable provisions of Office of Management and Budget (OMB)
                            Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. Those
                            standards require that we plan and perform the audits to obtain reasonable assurance
                            about whether the financial statements are free of material misstatement. An audit
                            includes examining, on a test basis, evidence supporting the amounts and disclosures
                            in the financial statements. An audit also includes assessing the accounting principles
                            used and significant estimates made by Fund Management, as well as evaluating the
                            overall financial statement presentation. We believe that our audits provide a
                            reasonable basis for our opinion.

                            In our opinion, the financial statements referred to above present fairly, in all material
                            respects, the financial position of the Fund as of September 30, 2007 and 2006, and its
                            net costs, changes in net position, and budgetary resources, for the years then ended, in
                            conformity with accounting principles generally accepted in the United States of
                            America.

                            In accordance with Government Auditing Standards, we have also issued a report
                            dated November 6, 2007, on our consideration of the Fund's internal control over
                            financial reporting and a report dated November 6, 2007, on our tests of its compliance
                            with laws and regulations. These reports are an integral part of an audit performed in
                            accordance with Government Auditing Standards, and these reports should be read in
                            conjunction with this report in considering the results of our audits.

                            Our audits were conducted for the purpose of forming an opinion on the financial
                            statements referred to in the first paragraph of this report as a whole. The information

                                                                       Member of the American Institute of Certified Public Accountants
presented in Section I: Overview, Section IV: Required Supplemental Information, and Section V: Other
Accompanying Information sections is not a required part of the financial statements but is
supplementary information required by accounting principles generally accepted in the United States of
America, OMB Circular A-136, Financial Reporting Requirements, or the Treasury Forfeiture Fund Act
of 1992. We applied certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of the supplementary information. However,
such information has not been subjected to the auditing procedures applied in the audits of the financial
statements and, accordingly, we express no opinion on it.




November 6, 2007




26            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
                             Department of the Treasury Forfeiture Fund
                                         BALANCE SHEETS
                                 As of September 30, 2007 and 2006
                                        ( Dollars in Thousands)

                                                                           2007             2006
Assets:
   Intragovernmental :
     Fund balance with Treasury                                       $     48,678     $     53,390
     Investments and related interest (Note 3)                             928,069          672,180
     Advances (Note 5)                                                         240              166
   Total Intragovernmental                                                 976,987          725,736
     Cash and other monetary assets (Note 6)                                 76,553          86,558
     Accounts receivable                                                      1,470           2,643
                                                                             78,023          89,201
     Forfeited property (Note 7)
       Held for sale, net of mortgages, liens and claims                     74,146          46,665
       To be shared with federal, state or local, or foreign
           governments                                                        2,588           2,060
     Total forfeited property, net of mortgages, liens
        and claims                                                           76,734          48,725
Total Assets                                                          $   1,131,744    $    863,662

Liabilities:
   Intragovernmental:
     Distributions payable
        Other federal agencies                                        $      20,287    $      1,969
     Accounts payable                                                        13,195          28,489
   Total Intragovernmental                                                   33,482          30,458
     Seized currency and other monetary instruments (Note 9)               547,772          464,615
     Distributions payable (Note 10)
       State and local agencies and foreign governments                      85,601          54,663
     Accounts payable                                                        26,768          26,328
     Deferred revenue from forfeited assets                                  76,734          50,841
Total Liabilities                                                          770,357          626,905
Net Position:
  Cumulative results of operations (Note 11)                               361,387          236,757
Total Liabilities and Net Position                                    $   1,131,744    $    863,662

               The accompanying notes are an integral part of these financial statements.
                                   SECTION II - FINANCIAL STATEMENTS                               27
                               Department of the Treasury Forfeiture Fund
                                      STATEMENTS OF NET COST
                             For the years ended September 30, 2007 and 2006
                                           (Dollars in Thousands)


                                                                            2007              2006
Program:
ENFORCEMENT


     Intragovernmental:
        Seizure investigative costs and asset management              $        62,915   $      54,939
        Other asset related contract services                                   4,401           2,066
        Awards to informer                                                        319              44
        Data systems, training and others                                      30,125          22,960

     Total Intragovernmental                                                   97,760          80,009

     With the Public:
       National contract services seized property and other                    46,635          52,716
       Joint operations                                                         9,111           8,531

     Total with the Public                                                     55,746          61,247

Net Cost of Operations (Note 16)                                      $     153,506     $     141,256




                 The accompanying notes are an integral part of these financial statements.
28           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
                                  Department of theTreasury Forfeiture Fund
                               STATEMENTS OF CHANGES IN NET POSITION
                                For the years ended September 30, 2007 and 2006
                                              (Dollars in Thousands)


                                                                                   2007            2006

Net Position - Beginning of year                                            $     236,757     $   255,307

Financing Sources (Non-Exchange Revenues):
   Intragovernmental
       Investment interest income                                                  37,544          26,750
   Public
       Forfeited currency and monetary instruments                                207,956         167,919
       Sales of forfeited property net of mortgages and claims                     44,236          46,732
       Proceeds from participating with other federal agencies                     57,952          14,099
       Value of property transferred in equitable sharing                           9,840           1,696
       Payments in lieu of forfeiture, net of refund (Note 19)                     (3,184)         (9,045)
       Reimbursed costs                                                             4,789           7,324
       Others                                                                       6,860           1,721

   Total Gross Non-Exchange Revenues                                              365,993         257,196

Less: Equitable Sharing
   Intragovernmental
       Federal                                                                      (9,806)         (6,401)
   Public
       State and local agencies                                                    (32,743)        (81,311)
       Foreign countries                                                              (514)           (707)
       Victim restitution                                                           (4,871)         (1,346)

                                                                                   (38,128)        (83,364)

   Total Equitable Sharing                                                         (47,934)        (89,765)

Total Non-Exchange Revenues, Net                                                  318,059         167,431
Transfers-Out
   Intragovernmental
   Super surplus (Note 13)                                                         (27,474)        (19,127)
   Secretary's enforcement fund (Note 14)                                          (12,449)        (25,598)

Total Transfers-Out                                                                (39,923)        (44,725)

Total Financing Sources- Net                                                       278,136         122,706
Net Cost of Operations                                                            (153,506)       (141,256)

Net Results of Operations                                                         124,630          (18,550)

Net Position - End of Year                                                  $     361,387     $   236,757



                The accompanying notes are an integral part of these financial statements.
                                       SECTION II - FINANCIAL STATEMENTS                                  29
                             Department of theTreasury Forfeiture Fund
                           STATEMENTS OF BUDGETARY RESOURCES
                           For the years ended September 30, 2007 and 2006
                                         (Dollars in Thousands)


                                                                            2007               2006
Budgetary Resources:

     Unobligated balance - beginning of year                          $      82,935     $      86,760
     Recoveries of prior year unpaid obligations                             17,231            34,612
     Budget authority                                                       451,463           271,187

Total Budgetary Resources                                             $     551,629     $     392,559

Status of Budgetary Resources:

     Obligations incurred                                             $     391,512     $     309,624
     Unobligated balances - available                                       160,117            82,935

Total Status of Budgetary Resources                                   $     551,629     $     392,559

Change in Obligated Balance:

     Obligated balance, net - beginning of year                       $     244,515     $      256,255
     Obligations incurred                                                   391,512            309,624
     Less: Gross outlays                                                   (302,711)          (286,752)
     Less: Recoveries of prior year unpaid obligations, actual              (17,231)           (34,612)

Obligated balance, net - end of year                                  $     316,085     $     244,515


Net Outlays                                                           $     302,711     $     286,752




                 The accompanying notes are an integral part of these financial statements.
30           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
Note 1: Reporting Entity

The Department of the Treasury Forfeiture Fund (Treasury Forfeiture Fund or the Fund) was established
by the Treasury Forfeiture Fund Act of 1992, Public Law 102-393 (the TFF Act), and is codified at 31
USC 9703. The Fund was created to consolidate all Treasury law enforcement bureaus under a single
forfeiture fund program administered by the Department of the Treasury (Treasury). Treasury law
enforcement bureaus fully participating in the Fund upon enactment of this legislation were the U.S.
Customs Service (Customs); the Internal Revenue Service (IRS); the United States Secret Service (Secret
Service); the Bureau of Alcohol, Tobacco and Firearms (ATF); the Financial Crimes Enforcement
Network (FinCEN); and the Federal Law Enforcement Training Center (FLETC). FinCEN and FLETC
contribute no revenue to the Fund and receive relatively few distributions from the Fund. The U.S. Coast
Guard, formerly part of the Department of Transportation, now part of the Department of Homeland
Security (DHS), also participates in the Fund. However, all Coast Guard seizures are treated as Customs
seizures because the Coast Guard lacks seizure authority.

With enactment of the Homeland Security Act of 2002 (Homeland Security Act), law enforcement
bureaus currently participating in the Fund are: the Internal Revenue Service - Criminal Investigation
(IRS - CI) of Treasury, Customs and Border Protection (CBP), Immigration and Customs Enforcement
(ICE) and the U.S. Secret Service (USSS) of DHS. The U.S. Coast Guard of DHS join these bureaus. The
Fund continues in its capacity as a multi-Departmental Fund, representing the interests of law
enforcement components of the Departments of Treasury and Homeland Security.

The Fund is a special fund that is accounted for under Treasury symbol number 20X5697. From this no-
year account, expenses may be incurred consistent with 31 USC 9703, as amended. A portion of these
expenses, referred to as discretionary expenses, are subject to annual appropriation limitations. Others,
referred to as non-discretionary (mandatory) expenses, are limited only by the availability of resources in
the Fund. Both expense categories are limited in total by the amount of revenue in the Fund. The Fund
is managed by the Treasury's Executive Office for Asset Forfeiture (EOAF).

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic use
of asset forfeiture by law enforcement bureaus to disrupt and dismantle criminal enterprises. The goal of
the Treasury Forfeiture Fund is to support the Treasury’s national asset forfeiture program in a manner
that results in federal law enforcement’s continued and effective use of asset forfeiture as a high-impact
law enforcement sanction to disrupt and dismantle criminal activity. Under a Memorandum of
Understanding (MOU) with Treasury, CBP acts as the executive agent for certain operations of the Fund.
Pursuant to that executive agency role, CBP’s National Finance Center (NFC) is responsible for
accounting and financial reporting for the Fund, including timely and accurate reporting and compliance
with Treasury, the Comptroller General and the Office of Management and Budget (OMB) regulations
and reporting requirements.




                                 SECTION II - FINANCIAL STATEMENTS                                      31
Note 2: Summary of Significant Accounting Policies

Basis of Accounting and Presentation

The Fund began preparing audited financial statements in Fiscal Year 1993 as required by the Fund’s
enabling legislation 31 USC 9703(f)(2)(H), and the Chief Financial Officers Act of 1990. Beginning
with the Fiscal Year 1996 report, the Government Management Reform Act of 1994 (GMRA) requires
executive agencies, including the Treasury, to produce audited consolidated accountability reports and
related footnotes for all activities and funds.

The financial statements have been prepared from the accounting records of the Fund in conformity with
accounting principles generally accepted in the United States of America (GAAP) and specified by OMB
in OMB Circular A-136, Financial Reporting Requirements (OMB Circular A-136). GAAP for federal
entities is prescribed by the Federal Accounting Standards Advisory Board (FASAB), which is
designated the official accounting standards setting body of the Federal Government by the American
Institute of Certified Public Accountants.

Financial Statements Presented

These financial statements are provided to meet the requirements of the Chief Financial Officers Act of
1990, and the Government Management Reform Act of 1994. They consist of the balance sheet, the
statement of net cost, the statement of changes in net position, and the statement of budgetary resources,
all of which are prescribed by OMB.

Comparative financial statements are presented in order to provide a better understanding of, and
identifying trends in the financial position and results of operations of the Fund.

Allowable Fund Expenses

The majority of the revenue recorded by the Fund is utilized for operating expenses or distributed to state
and local law enforcement agencies, other federal agencies, and foreign governments, in accordance with
the various laws and policies governing the operations and activities of the Fund. Under the TFF Act, the
Fund is authorized to pay certain expenses using discretionary or mandatory funding authorities of the
Fund.

Discretionary authorities include but may not be limited to: the payment of expenses for the purchase of
awards for information or assistance leading to a civil or criminal forfeiture involving any law
enforcement bureau participating in the Fund; purchase of evidence or information that meet the criteria
set out in 31 USC 9703(a)(2)(B); payment for equipment for vessels, vehicles, or aircraft available for
official use as described by 31 USC 9703(a)(2)(D) and (F); reimbursement of private persons for
expenses incurred while cooperating with a Treasury law enforcement organization in investigations;
publication of the availability of certain awards; and payment for training foreign law enforcement
personnel with respect to seizure or forfeiture activities of the Fund. Discretionary expenses are subject
to an annual, definite Congressional appropriation from revenue in the Fund.

Expenses from the mandatory authorities of the Fund include but are not limited to: all proper expenses
of the seizure, including investigative costs and purchases of evidence and information leading to seizure,
holding cost, security costs, etc., awards of compensation to informers under section 619 of the Tariff Act
32          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
(19 USC 1619); satisfaction of liens against the forfeited property, and claims of parties with interest in
forfeited property; expenses incurred by state and local law enforcement agencies in joint law
enforcement operations with law enforcement agencies participating in the Fund; and equitable sharing
payments made to state and local law enforcement agencies in recognition of their efforts in a Fund
seizure leading to forfeiture. These mandatory expenses are paid pursuant to the permanent indefinite
authorities of the Fund; are only limited by revenue in the Fund each year and do not require additional
Congressional action for expenditure.

The Fund's expenses are either paid on a reimbursement basis or paid directly on behalf of a participating
bureau. Reimbursable expenses are incurred by the respective bureaus participating in the Fund against
their appropriation and then submitted to the Fund for reimbursement. The bureaus are reimbursed
through Inter-Agency Transfers (SF-1081) or Intra-governmental Payments and Collection (IPAC)
System. Certain expenses such as equitable sharing, liens, claims and state and local joint operations
costs are paid directly from the Fund.

Further, the Fund is a component unit of the Treasury with participating bureaus in the DHS. As such,
employees of both Departments may perform certain operational and administrative tasks related to the
Fund. Payroll costs of employees directly involved in the security and maintenance of forfeited property
are also recorded as expenses in the financial statements of the Fund (included in the line item “seizure
investigative costs and asset management” in the statement of net cost.)

Revenue and Expense Recognition

Revenue from the forfeiture of property is deferred until the property is sold or transferred to a state,
local or federal agency. Revenue is not recorded if the forfeited property is ultimately destroyed or
cannot be legally sold.

Revenue from currency is recognized upon forfeiture. Payments in lieu of forfeiture (mitigated seizures)
are recognized as revenue when the payment is received. Revenue received from participating with
certain other federal agencies is recognized when the payment is received. Operating costs are recorded
as expenses and related liabilities when goods are received or services are performed. Certain probable
equitable sharing liabilities existing at year end are accrued based on estimates.

As provided for in the TFF Act, the Fund invests seized and forfeited currency that is not needed for
current operations. Treasury’s Bureau of Public Debt invests the funds in obligations of, or guaranteed
by, the United States Government. Interest is reported to the Fund and recorded monthly as revenue in
the general ledger.

Earmarked Funds

Earmarked funds are financed by specifically identified revenues, often supplemented by other financing
sources, which remain available over time. These specifically identified revenues and other financing
sources are required by statute to be used for designated activities, benefits, or purposes, and must be
accounted for separately from the Government’s general revenues. In accordance with SFFAS 27,
Earmarked Funds, all of the TFF’s revenue meets this criteria and constitutes an earmarked fund.

The Federal Government does not set aside assets to pay future benefits or other expenditures associated
with earmarked funds. The cash collected from earmarked funds are deposited in the U.S. Treasury,
which uses the cash for general government purposes. Treasury securities are issued to the TFF as
                                 SECTION II - FINANCIAL STATEMENTS                                      33
evidence of its receipts. Treasury securities are an asset to the TFF and a liability to the U.S. Treasury.
Because the TFF and U.S. Treasury are both parts of the government, these assets and liabilities offset
each other from the standpoint of the government as a whole. For this reason, they do not represent an
asset or a liability in the U.S. Government-wide financial statements.
Treasury securities provide the TFF with authority to draw upon the U.S. Treasury to make future benefit
payments or other expenditures. When the TFF requires redemption of these securities to make
expenditures, the government finances those expenditures out of accumulated cash balances, by raising
taxes or other receipts, by borrowing from the public or repaying less debt or by curtailing other
expenditures. This is the same way that the government finances all other expenditures.

Equitable Sharing (Assets Distributed)

Forfeited property, currency, or proceeds from the sales of forfeited property may be shared with federal,
state and local law enforcement agencies or foreign governments, which provided direct or indirect
assistance in the related seizure. In addition, the Fund may transfer forfeited property to other federal
agencies, which would benefit from the use of the item. A new class of asset distribution was established
for victim restitution in 1995. These distributions include property and cash returned to victims of fraud
and other illegal activity. Upon approval by Fund management to share or transfer the assets, both
revenue from distributed forfeited assets and distributions are recognized for the net realizable value of
the asset to be shared or transferred, thereby resulting in no gain or loss recognized. Revenue and /or
expenses are recognized for property and currency, which are distributed to or shared with non-federal
agencies, per SFFAS No. 7, Accounting for Revenue and Other Financing Sources.

Entity Assets

Entity assets are used to conduct the operations and activities of the Fund. Entity assets comprise
intragovernmental and non-intragovernmental assets. Intragovernmental balances arise from transactions
among federal agencies. These assets are claims of a federal entity against another federal entity. Entity
assets consist of cash or other assets, which could be converted into cash to meet the Fund's current or
future operational needs. Such other assets include investments of forfeited balances, accrued interest on
seized balances, receivables, and forfeited property, which are held for sale or to be distributed.

•	 Fund Balance with Treasury – This represents amounts on deposit with Treasury.

•	 Investments and Related Interest Receivable – This includes forfeited cash held by the Fund and
   seized currency held in the Customs Suspense Account that had been invested in short term U.S.
   Government Securities.

•	 Receivables – Intragovernmental receivables principally represent monies due from the law
   enforcement agencies participating in the Fund. The values reported for other receivables are
   primarily funds due from the national seized property contractor for properties sold; the proceeds of
   which have not yet been deposited into the Fund. No allowance has been made for uncollectible
   amounts as the accounts recorded as a receivable at year end were considered to be fully collectible
   as of September 30, 2007 and 2006.

•	 Advances – This primarily represents cash transfers to Treasury or law enforcement bureaus
   participating in the Fund for orders to be delivered.

34          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
•	 Cash and Other Monetary Assets – This includes forfeited currency on hand not yet deposited, and
   forfeited currency held as evidence.

•	 Forfeited Property and Currency – Forfeited property and currency is recorded in the respective
   seized property and forfeited asset tracking systems at the estimated fair value at the time of seizure.
   However, based on historical sales experiences for the year, properties are adjusted to reflect the
   market value at the end of the fiscal year for financial statement reporting purposes. Direct and
   indirect holding costs are not capitalized for individual forfeited assets. Forfeited currency not
   deposited into the Fund is included as part of Entity Assets - Cash and Other Monetary Assets.

Further, mortgages and claims on forfeited assets are recognized as a valuation allowance and a reduction
of deferred revenue from forfeited assets when the asset is forfeited. The allowance includes mortgages
and claims on forfeited property held for sale and a minimal amount of claims on forfeited property
previously sold. Mortgages and claims expenses are recognized when the related asset is sold and is
reflected as a reduction of sales of forfeited property.

Additionally, SFFAS No. 3, Accounting for Inventory and Related Property, requires certain additional
disclosures in the notes to the financial statements, including an analysis of changes in seized and
forfeited property and currency, for both carrying value and quantities, from that on hand at the
beginning of the year to that on hand at the end of the year. These analyses are disclosed in Notes 8 and
9.

Non-entity Assets

Non-entity assets held by the Fund are not available for use by the Fund. Non-entity assets comprise
intragovernmental and other assets. Intragovernmental balances arise from transactions among federal
agencies. These assets are claims of a federal entity against another federal entity. Non-entity assets are
not considered as financing sources (revenue) available to offset operating expenses, therefore, a
corresponding liability is recorded and presented as governmental liabilities in the balance sheet to reflect
the custodial/fiduciary nature of these activities.

•	 Seized Currency and Property – Seized Currency is defined as cash or monetary instruments that
   are readily convertible to cash on a dollar for dollar basis. SFFAS No. 3 requires that seized monetary
   instruments (cash and cash equivalents) be recognized as an asset in the financial statements and a
   liability be established in an amount equal to the seized asset value due to: (i) the fungible nature of
   monetary instruments, (ii) the high level of control that is necessary over these assets; and (iii) the
   possibility that these monies may be returned to their owner in lieu of forfeiture.

    Seized property is recorded at its appraised value at the time of seizure. The value is determined by
    the seizing entity and is usually based on a market analysis such as a third party appraisal, standard
    property value publications or bank statements. Seized property is not recognized as an asset in the
    financial statements, as transfer of ownership to the government has not occurred as of September 30.
    Accordingly, seized property other than monetary instruments are disclosed in the footnotes in
    accordance with SFFAS No. 3.

•	 Investments – This balance includes seized cash on deposit in the Fund’s suspense account held by
   Treasury which has been invested in short term U.S. Government Securities.

                                  SECTION II - FINANCIAL STATEMENTS                                       35
•	 Cash and Other Monetary Assets – This balance represents the aggregate amount of the Fund’s
   seized currency on deposit in the Fund’s suspense account held by Treasury, seized cash on deposit
   held with other financial institutions and, cash on hand in vaults held at field office locations.

Liabilities Covered by Budgetary Resources

Liabilities covered by budgetary resources represent liabilities incurred, which are covered by available
budgetary resources. The components of such liabilities for the Fund are as follows:

•	 Distributions Payable – Distributions payable to federal and non-federal agencies is primarily
   related to equitable sharing payments and payments to be made by the Fund to the victims of fraud.

•	 Accounts Payable – Amounts reported in this category include accrued expenses authorized by the
   TFF Act (See "Allowable Fund Expenses") for which payment was pending at year end.

•	 Seized Currency – Amounts reported in this category represent the value of seized currency that is
   held by the Fund which equals the amount of seized currency reported as an asset.

•	 Deferred Revenue from Forfeited Assets – At year end, the Fund held forfeited assets, which had
   not yet been converted into cash through a sale. The amount reported here represents the value of
   these assets, net of mortgages and claims.

Liabilities Not Covered by Budgetary Resources

The Fund does not currently have liabilities not covered by available budgetary resources.

Net Position

The components of net position are classified as follows:
•	 Retained Capital – There is no cap on amounts that the Fund can carry forward into Fiscal Year
   2007. The cap was removed by the Fiscal Year 1997 Omnibus Appropriations Act (PL 104-208).

•	 Unliquidated Obligations – This category represents the amount of undelivered purchase orders,
   contracts and equitable sharing requests which have been obligated with current budget resources or
   delivered purchase orders and contracts that have not been invoiced. An expense and liability are
   recognized and the corresponding obligations are reduced as goods are received or services are
   performed. A portion of the equitable sharing requests that were in final stages of approval are
   recognized as liabilities at year end. Prior experience with the nature of this account indicated that a
   substantial portion of these requests were certain liabilities at year end. Prior to Fiscal Year 1999,
   expenses and liabilities were recognized and the corresponding obligations reduced when final
   management approval for an equitable sharing request was given (See also Distributions Payable at
   Note 10).

•	 Results of Operations – This category represents the net difference, for the activity during the year,
   between: (i) financing sources including transfers, and revenues; and (ii) expenses.




36          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
Note 3: Investments and Related Interest

All investments are intragovernmental short-term (35 days or less) non-marketable par value federal debt
securities issued by, and purchased through Treasury's Bureau of the Public Debt. Investments are
always purchased at a discount and are reported at acquisition cost, net of discount. The discount is
amortized into interest income over the term of the investment. The investments are always held to
maturity. They are made from cash in the Fund and from seized currency held in the Customs Suspense
Account. The Customs Suspense Account became the depository for seized cash for the Fund following
enactment of the TFF Act.

The following schedule presents the investments on hand as of September 30, 2007 and 2006,
respectively (dollars in thousands):

Entity Assets

                                                                      Unamortized       Investment,
   Description                                           Cost          Discount             Net
   September 30, 2007:
   Treasury Forfeiture Fund -
   28 days 3.315%
   U.S. Treasury Bills                              $    428,629     $      (1,105)     $   427,524

   Interest Receivable                                                                          855
   Total Investment, Net, and Interest
    Receivable                                                                          $   428,379

   Fair Market Value                                                                    $   427,973


                                                                      Unamortized       Investment,
   Description                                           Cost          Discount             Net
   September 30, 2006:
   Treasury Forfeiture Fund -
   28 days 4.65%
   U.S. Treasury Bills                              $    275,054     $        (994)     $   274,060

   Interest Receivable                                                                          783
   Total Investment, Net, and Interest
     Receivable                                                                         $   274,843

    Fair Market Value                                                                   $   274,468




                                SECTION II - FINANCIAL STATEMENTS                                     37
Non-entity Assets
                                                                       Unamortized          Investment,
                      Description                        Cost           Discount                Net

     September 30, 2007:

     Treasury Forfeiture Fund – Seized Currency
     Suspense Account
     28 days 3.315%
     U.S. Treasury Bills                             $   500,981       $      (1,291)       $   499,690
     Fair Market Value                                                                      $   500,214

     September 30, 2006:

     Treasury Forfeiture Fund – Seized Currency
     Suspense Account
     28 days 4.65%
     U.S. Treasury Bills                             $   398,778       $      (1,441)       $   397,337
     Fair Market Value                                                                      $   397,929

Note 4: Non-Entity Assets

The following schedule presents the non-entity assets as of September 30, 2007 and 2006, respectively,
(dollars in thousands):

                                                                       2007                 2006
       Seized currency:
           Intragovernmental Investments (Note 3)                  $       499,690      $   397,337
           Cash and other monetary assets (Note 6)                          48,082           67,278
       Total Non-Entity Assets                                             547,772          464,615
       Total Entity Assets                                                 583,972          399,047
       Total Assets                                                $   1,131,744        $   863,662

Note 5: Advances

Advances amounted to $240 thousand and $166 thousand as of September 30, 2007 and 2006,
respectively.

Note 6: Cash and Other Monetary Assets

Entity Assets

Cash and Other Monetary Assets held on hand included forfeited currency not yet deposited, as well as
forfeited currency held as evidence, amounting to $28.5 million and $19.3 million as of September 30,
2007 and 2006, respectively.
38          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
Non-Entity Assets
Cash and Other Monetary Assets included seized currency not yet deposited, as well as deposited seized
currency which is not invested in order to pay remissions, amounting to $48.1 million and $67.3 million
as of September 30, 2007 and 2006, respectively.

Note 7: Forfeited Property

The following summarizes the components of forfeited property (net), as of September 30, 2007 and
2006, respectively, (dollars in thousands):

                                                                           2007            2006
 Held for Sale                                                         $    79,882       $   52,645
 To be shared with federal, state or local, or foreign government            2,588            2,060
   Total forfeited property (Note 8)                                        82,470           54,705
 Less: Allowance for mortgages and claims                                   (5,736)          (5,980)
 Total forfeited property, net                                         $    76,734       $    48,725




                                 SECTION II - FINANCIAL STATEMENTS                                  39
Note 8: FY 2007 Analysis of Changes in Forfeited Property and Currency

The following schedule presents the changes in the forfeited property and currency balances from October 1, 2006 to September 30, 2007. (Dollar
value is in thousands.)

                  10/1/06 Financial                              10/1/06 Carrying
                 Statement Balance          Adjustments                Value                   Forfeitures                Deposits/Sales             Disposals/Transfers

                  Value    Number         Value       Number     Value       Number          Value       Number         Value     Number              Value         Number
Currency         $18,997         -    $           -         -   $ 18,997           -     $    263,943          -   $    (269,656)       -        $            (4)
Other Monetary
 Instruments         283          -               -         -         283            -           190           -              (9)            -                (5)
 Subtotal         19,280          -               -         -      19,280            -       264,133           -        (269,665)            -                (9)

Real Property     40,312       141      (8,304)             -     32,008         141          40,172         105         (30,022)       (119)           (4,214)         (11)
General Property   3,423     6,117       5,583              -      9,006       6,117          21,954      15,208          (3,541)       (544)           (1,076)        (932)
Vessels              712        39         372              -      1,084          39           1,202          77          (1,481)        (65)              (15)          (2)
Aircraft             241         2         132              -        373           2             284           4               -           -                 -
Vehicles          10,017     3,608       9,169              -     19,186       3,608          60,590      17,023         (40,970)    (13,364)           (9,828)        (929)
Subtotal          54,705     9,907       6,952              -     61,657       9,907         124,202      32,417         (76,014)    (14,092)          (15,133)      (1,874)
  Grand Total    $73,985     9,907    $ 6,952               -   $ 80,937       9,907     $   388,335      32,417   $    (345,679)    (14,092) $        (15,142)      (1,874)

                                                                                                                                                     Fair Market Value              9/30/07 Financial
                 Victim Restitution          Destroyed           Other Adjustments            Value Change             2007 Carrying Value              Adjustment                 Statement Balance

                  Value    Number         Value       Number     Value       Number          Value       Number         Value       Number            Value         Number         Value      Number
Currency         $     -         -    $           -         -     14,743           -     $           -         -   $      28,023          -      $             -          -    $    28,023
Other Monetary
 Instruments           -          -               -         -         (11)           -               -         -             448             -                 -           -            448
 Subtotal              -          -               -         -      14,732            -               -         -          28,471             -                 -           -         28,471

Real Property          -          -            -             -    10,228          20              170          -          48,342         136            14,799             -      63,141           136
General Property       -          -         (129)      (11,353)    1,173         451           (1,613)         -          25,774       8,947           (18,017)            -       7,757         8,947
Vessels                -          -            -           (10)       83          13               (6)         -             867          52              (512)            -         355            52
Aircraft               -          -            -             -        19           1                -          -             676           7              (239)            -         437             7
Vehicles               -          -            -          (182)   (1,455)       (500)             (74)         -          27,449       5,656           (16,669)            -      10,780         5,656
Subtotal               -          -         (129)      (11,545)   10,048         (15)          (1,523)         -         103,108      14,798           (20,638)            -      82,470        14,798
  Grand Total    $     -          -   $     (129)      (11,545) $ 24,780         (15) $        (1,523)         -   $     131,579      14,798     $     (20,638)            -   $ 110,941        14,798




40                                        TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
Note 8 (Cont’d): FY 2006 Analysis of Changes in Forfeited Property and Currency

The following schedule presents the changes in the forfeited property and currency balances from October 1, 2005 to September 30, 2006. (Dollar
value is in thousands.)

                  10/1/05 Financial                                  10/1/05 Carrying
                 Statement Balance           Adjustments                   Value                  Forfeitures                Deposits/Sales             Disposals/Transfers

                  Value      Number        Value       Number        Value     Number         Value         Number      Value     Number                 Value    Number
Currency         $ 4,729           -   $           -         -   $    4,729          -      $ 160,549             -   $ (149,162)       -           $     (2,440)
Other Monetary
 Instruments           204         -               -         -          204             -           111           -             (25)            -
 Subtotal            4,933         -               -         -        4,933             -       160,660           -        (149,187)            -         (2,440)

Real Property     39,369         138     (7,243)             -     32,126          138         22,297            94      (25,460)          (108)      (672)               (4)
General Property   5,287       6,079      9,640              -     14,927        6,079          9,639        11,311       (9,003)        (2,116)    (1,760)             (687)
Vessels              746          29        706              -      1,452           29          1,594            93       (1,132)           (43)      (997)               (6)
Aircraft             147           2         56              -        203            2            382             3         (212)            (3)         -
Vehicles           9,114       4,138      5,474              -     14,588        4,138         56,040        22,353      (39,300)       (10,283)   (12,294)            (1,414)
 Subtotal         54,663      10,386      8,633              -     63,296       10,386         89,952        33,854      (75,107)       (12,553)   (15,723)            (2,111)
 Grand Total     $59,596      10,386   $ 8,633               -   $ 68,229       10,386      $ 250,612        33,854   $ (224,294)       (12,553) $ (18,163)            (2,111)

                                                                                                                                                        Fair Market Value          9/30/06 Financial
                 Victim Restitution           Destroyed          Other Adjustments               Value Change             2006 Carrying Value              Adjustment             Statement Balance

                  Value      Number        Value       Number        Value     Number           Value       Number         Value       Number            Value       Number        Value     Number
Currency         $      -          -   $           -         -        5,321          -      $           -         -   $     18,997           -      $            -         -      $ 18,997
Other Monetary
 Instruments             -         -               -         -           (7)            -               -         -             283             -                -            -        283
 Subtotal                -         -               -         -        5,314             -               -         -          19,280             -                -            -     19,280

Real Property            -         -            -             -     3,775           21              (58)          -          32,008         141            8,304              -     40,312       141
General Property         -         -         (401)       (9,450)      557          980           (4,953)          -           9,006       6,117           (5,583)             -      3,423     6,117
Vessels                  -         -            -           (37)      177            3              (10)          -           1,084          39             (372)             -        712        39
Aircraft                 -         -            -             -         -            -                -           -             373           2             (132)             -        241         2
Vehicles                 -         -          (12)      (11,568)    1,463          382           (1,299)          -          19,186       3,608           (9,169)             -     10,017     3,608
Subtotal                 -         -         (413)      (21,055)    5,972        1,386           (6,320)          -          61,657       9,907           (6,952)             -     54,705     9,907
  Grand Total    $       -         -   $     (413)      (21,055) $ 11,286        1,386      $    (6,320)          -   $      80,937       9,907     $     (6,952)             -   $ 73,985     9,907




                                                                       SECTION II - FINANCIAL STATEMENTS                                                                                           41
Note 9: FY 2007 Analysis of Changes in Seized Property and Currency

Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or
administratively forfeited. Because of the fungible nature of currency and the high level of control necessary over these assets and the possibility
that these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon seizure. Seized property
other than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)


                    9/30/06 Financial                                                                                                                                   9/30/07 Financial
                   Statement Balance              Seizures                  Remissions             Forfeitures            Adjustments            Value Changes         Statement Balance
                   Value      Number          Value     Number            Value     Number      Value     Number         Value   Number         Value     Number       Value       Number
Currency         $ 452,065          -       $ 406,059         -       $    (65,402)      -    $ (263,943)      -     $     6,441      -     $       318         -    $ 535,538
Other Monetary
Instruments         12,550              -         219             -           (116)       -         (190)        -          (229)       -            -           -       12,234
  Subtotal         464,615              -     406,278             -        (65,518)       -     (264,133)        -         6,212        -          318           -      547,772

Real Property       278,470        701        116,070           269        (22,529)     (170)    (40,172)      (105)   (53,754)         57      1,465            -       279,550       752
General Property    237,133     14,676        318,012        24,598       (139,959)   (3,845)    (21,954)   (15,208)    (2,285)     (3,238)   (51,143)           -       339,804    16,983
Vessels               4,272         92          8,649           147         (2,650)      (38)     (1,202)       (77)    (1,241)        (12)        61            -         7,889       112
Aircraft              3,761         10         15,504            10        (13,266)       (3)       (284)        (4)    (3,233)          -        225            -         2,707        13
Vehicles             51,731      7,610        126,987        23,274        (49,739)   (4,609)    (60,590)   (17,023)    (3,671)       (597)      (377)           -        64,341     8,655
Subtotal            575,367     23,089        585,222        48,298       (228,143)   (8,665)   (124,202)   (32,417)   (64,184)     (3,790)   (49,769)           -       694,291    26,515
  Grand Total    $1,039,982     23,089      $ 991,500        48,298   $   (293,661)   (8,665) $ (388,335)   (32,417) $ (57,972)     (3,790) $ (49,451)           -   $ 1,242,063    26,515




42                                          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
Note 9 (Cont’d): FY 2006 Analysis of Changes in Seized Property and Currency

Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or
administratively forfeited. Because of the fungible nature of currency and the high level of control necessary over these assets and the possibility
that these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon seizure. Seized property
other than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)


                   9/30/05 Financial                                                                                                                9/30/06 Financial
                  Statement Balance           Seizures            Remissions              Forfeitures         Adjustments      Value Changes       Statement Balance
                   Value      Number       Value    Number      Value     Number       Value      Number     Value   Number   Value    Number       Value      Number
Currency         $ 379,265           -   $ 281,034       -    $ (73,584)       -     $ (160,549)        -   $ 25,899      - $        -       -    $ 452,065
Other Monetary
 Instruments           1,747         -         362        -         (155)        -         (111)        -      10,707          -         -    -       12,550
 Subtotal            381,012         -     281,396        -      (73,739)        -     (160,660)        -      36,606          -         -    -      464,615

Real Property        261,173      627      128,051      331      (24,696)      (112)    (22,297)       (94)   (62,885)      (51)      (876)   -       278,470      701
General Property     146,559   10,333      256,276   24,848     (126,788)    (4,615)     (9,639)   (11,311)    (3,557)   (4,579)   (25,718)   -       237,133   14,676
Vessels                4,350       97        6,071      151       (3,304)       (54)     (1,594)       (93)    (1,076)       (9)      (175)   -         4,272       92
Aircraft               4,154        8        4,538       15         (942)        (8)       (382)        (3)    (4,982)       (2)     1,375    -         3,761       10
Vehicles              61,021   10,291      126,171   27,271      (65,868)    (6,665)    (56,040)   (22,353)    (4,073)     (934)    (9,480)   -        51,731    7,610
Subtotal             477,257   21,356      521,107   52,616     (221,598)   (11,454)    (89,952)   (33,854)   (76,573)   (5,575)   (34,874)   -       575,367   23,089
  Grand Total    $   858,269   21,356    $ 802,503   52,616   $ (295,337)   (11,454) $ (250,612)   (33,854) $ (39,967)   (5,575) $            -   $ 1,039,982   23,089




                                                                                                                         (34,874)




                                                                SECTION II - FINANCIAL STATEMENTS                                                                   43
Note 10: Distributions Payable (state and local agencies and foreign governments)

Distributions Payable (state and local agencies and foreign governments) amounted to $85.6 million and
$54.7 million as of September 30, 2007 and 2006, respectively. Fund management recognizes as a
liability a portion (based on the average of historical pay-out percentage) of the equitable sharing
requests, that were approved or in final stages of approval on September 30, 2007 and 2006, respectively.
Prior experience with the nature of this account indicated that a substantial portion of these requests were
certain to be paid out by the Fund during the following fiscal year.

Note 11: Net Position

Cumulative Results

The following summarizes components of cumulative results as of and for the years ended September 30,
2007 and 2006, respectively, (dollars in thousands):

                                                                 2007                2006
                 Retained Capital                            $    64,045        $   119,551
                 Unliquidated Obligations                        172,712            135,756
                 Results of Operations                           124,630            (18,550)
                                                             $ 361,387          $   236,757

Unliquidated Obligations

The following summarizes the components of unliquidated obligations as of September 30, 2007 and
2006, respectively, (dollars in thousands):

                                                                2007                2006
                  Equitable Sharing                           $ 4,090       $        76,796
                  Mandatory                                    168,622               58,960
                                                            $ 172,712       $       135,756

Note 12: Related Party Transactions

The Fund reimbursed agencies for the purchase of certain capital assets. These assets are reported by the
participating agencies in their financial statements.

Note 13: Super Surplus

31 USC 9703 (g)(4)(B) allows for the expenditure, without fiscal year limitation, after the reservation of
amounts needed to continue operations of the Fund. This “Super Surplus” balance may be used for law
enforcement activities of any federal agency.

Amounts distributed to other federal agencies for law enforcement activities under “Super Surplus”
requirements amounts to $27.5 million and $19.1 million in fiscal years 2007 and 2006, respectively.


44          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
Note 14: Secretary’s Enforcement Fund

31 USC 9703 (b)(5) is another category of permanent indefinite authority. These funds are available to
the Secretary, without further action by Congress and without fiscal year limitation, for federal law
enforcement purposes of Treasury law enforcement organizations. The source of Section 9703(b)(5)
funds is equitable sharing payments received from the Department of Justice and the U.S. Postal Service
(USPS) representing Treasury's share of forfeiture proceeds from Justice and USPS cases.

Amounts distributed for federal law enforcement purposes of Treasury law enforcement organizations
amounted to $12.4 million and $25.6 million in fiscal years 2007 and 2006, respectively.

Note 15: Commitments and Contingencies

A portion of the equitable sharing requests that were in final stages of approval are recognized as
liabilities as of September 30 (See also Note 10, Distributions Payable).

In addition to the amounts estimated above, there are other amounts, which may ultimately be shared,
that are not identified at this time.

CONTINGENCIES
Possible claims of potential significance include the following:

1. 	    The United States Court of Appeals for the Ninth Circuit, in a case styled Julie Sueoka, et al. v.
        United States, et al., Case No. 98-6313-AAH (RCx), (C.D. Ca. 1998), ruled that it is
        unconstitutional to forfeit currency based upon a violation of a federal currency reporting statute.
        Accordingly, the court has ruled that in returning currency, the government must return the
        benefit that is received from holding the currency.

The interest to be returned will be payable out of the income of the Fund, and, at present, represents a
possible claim of potential significance.

2. 	   The Supreme Court has ruled that the government must return forfeited currency in those cases of
       individuals convicted for currency reporting violations who have had currency forfeited due to
       the violation. The amount of the currency that might be refunded will be payable from the Fund,
       and, at present, represents a possible claim of potential significance.

At present, it is not possible to determine the likelihood that the above claims will arise. Similarly, it is
not possible to determine the value of such potential claims against the Fund.

Judgements and settlements of $2,500 or greater, resulting from litigation and claims against the Fund are
satisfied from various claims and judgement funds maintained by Treasury.




                                  SECTION II - FINANCIAL STATEMENTS                                       45
Note 16: Disclosures Related to the Statements of Net Cost

Gross costs and earned revenue related to Law Enforcement Programs administered by the Fund are
presented in Treasury’s budget functional classification (in thousands) as set out below:

                                                             2007             2006

                    Gross Costs                           $ 153,506        $ 141,256
                    Earned Revenues                               -                -
                    Net Costs                             $ 153,506        $ 141,256

The Fund falls under the Treasury’s budget functional classification related to Administration of
Justice.

Note 17: Disclosures Related to the Statements of Budgetary Resources

The Fund’s net amount of budgetary resources obligated at the end of fiscal years 2007 and 2006 are
$316.1 million and $244.5 million, respectively. This amount is fully covered by cash on hand in the
Fund and Entity Investments. The Fund does not have borrowing or contract authority and, therefore, has
no repayment requirements, financing sources for repayment, or other terms of borrowing authority. No
adjustments were required during the reporting period to budgetary resources available at the beginning
of the year. There are no legal arrangements, outside of normal government wide restrictions,
specifically affecting the Fund’s use of unobligated balances of budget authority.

Adjustments to budgetary resources available at the beginning of fiscal years 2007 and 2006 consist of
the following (in thousands):

                                                                  2007            2006
                Recoveries of Prior Year Obligations          $   17,231      $   34,612

Recoveries of prior year obligations are the difference between amounts that Fund management obligated
(including equitable sharing) and amounts subsequently approved for payment against those obligations.

Note 18: Dedicated Collections

The Fund is classified as a special fund. All its activities are reported as dedicated collections held for
later use.




46          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
Note 19: Payments in Lieu of Forfeiture, Net of Refund

The following summarizes Payments in Lieu of Forfeiture, Net of Refunds as of September 30, 2007 and
2006, respectively, (dollars in thousands):

                                                             2007            2006
                 Payments in Lieu of Forfeiture              $ 7,547        $ 7,580
                 Refunds                                     (10,731)       (16,625)
                 Total                                     ($ 3,184)        ($ 9,045)

Note 20: Reconciliation of Net Cost of Operations (Proprietary) to Budget

The reconciliation of Net Cost of Operations to Budget demonstrates the relationship between the Fund’s
proprietary (net cost of operations) and budgetary accounting (net obligations) information.

                                                                             2007           2006
  Resources Used to Finance Activities:
    Budgetary resources obligated
        Obligations incurred                                            $   391,512 $      309,624
        Less: Spending authority from offsetting
           Collections and recoveries                                       (17,231)        (34,612)
        Net Obligations                                                     374,281        275,012
    Other resources
        Transfers – out                                                     (39,923)       (44,725)
  Total Resources Used to Finance Activities                                334,358        230,287

  Resources Used to Finance Items not Part of the Net
   Cost of Operations
         Change in budgetary resources obligated for goods,
          services and benefits ordered but not yet provided                (112,141)       28,869
         Other resources or adjustments to net obligated
          resources that do not affect net cost of operations
            Mortgages and claims                                             (10,046)       (11,510)
            Refunds                                                          (10,731)       (16,625)
            Equitable Sharing (federal, state/local and foreign)             (43,063)       (88,419)
            Victim restitution                                                (4,871)        (1,346)
  Total Resources Used to Finance Items not Part of the Net
   Cost of Operations                                                       (180,852)       (89,031)
  Total Resources Used to Finance the Net Cost of Operations                 153,506       141,256
  Net Cost of Operations                                                $   153,506 $      141,256




                                SECTION II - FINANCIAL STATEMENTS                                    47
  SECTION III 


OTHER REPORTS

gka, P.C.
                                                         Certified Public Accountants | Management Consultants



1015 18th Street, NW         Independent Auditor's Report on Internal Control over Financial Reporting
      Suite 200
  Washington, DC            Inspector General
        20036               United States Department of the Treasury
                            Washington, D.C.
   Phone: 202-857-1777 

    Fax: 202-857-1778 

 Website: www.gkacpa.com
   We have audited the Principal Statements (balance sheet and the related statements of
                            net cost, changes in net position, and budgetary resources, hereinafter referred to as
                            “financial statements”) of the Department of the Treasury Forfeiture Fund (the Fund)
                            as of and for the year ended September 30, 2007, and have issued our report thereon
                            dated November 6, 2007. We conducted our audit in accordance with auditing
                            standards generally accepted in the United States of America; the standards applicable
                            to financial audits contained in Government Auditing Standards, issued by the
                            Comptroller General of the United States; and, applicable provisions of Office of
                            Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
                            Financial Statements.

                            In planning and performing our audit, we considered the Fund’s internal control over
                            financial reporting by obtaining an understanding of the design effectiveness of the
                            Fund’s internal control, determining whether these internal controls had been placed in
                            operation, assessing control risk, and performing tests of controls as a basis for
                            designing our auditing procedures for the purpose of expressing our opinion on the
                            financial statements. We limited our internal control testing to those controls
                            necessary to achieve the objectives described in OMB Bulletin No. 07-04 and
                            Government Auditing Standards. We did not test all internal controls relevant to
                            operating objectives as broadly defined by the Federal Managers’ Financial Integrity
                            Act of 1982, such as those controls relevant to ensuring efficient operations. The
                            objective of our audit was not to express an opinion on the effectiveness of the Fund’s
                            internal control over financial reporting. Consequently, we do not provide an opinion
                            on internal control over financial reporting.

                            Our consideration of the internal control over financial reporting was for the limited
                            purpose described in the preceding paragraph and would not necessarily disclose all
                            deficiencies in internal control over financial reporting that might be significant
                            deficiencies or material weaknesses. Under standards issued by the American Institute
                            of Certified Public Accountants, a control deficiency exists when the design or
                            operation of a control does not allow management or employees, in the normal course
                            of performing their assigned functions, to prevent or detect misstatements on a timely
                            basis. A significant deficiency is a control deficiency, or combination of control
                            deficiencies, that adversely affects the Fund’s ability to initiate, authorize, record,
                            process, or report financial data reliably in accordance with generally accepted
                            accounting principles, such that there is more than a remote likelihood that a
                            misstatement of the Fund’s financial statements that is more than inconsequential will
                            not be prevented or detected by the Fund’s internal control. A material weakness is a
                                                                      Member of the American Institute of Certified Public Accountants
significant deficiency, or combination of significant deficiencies, that results in more than a remote
likelihood that a material misstatement of the financial statements will not be prevented or detected by
the Fund’s internal control. Because of inherent limitations in internal control, misstatements
due to error or fraud may nevertheless occur and not be detected. We noted the following matters
involving the internal control and its operation that we consider to be significant deficiencies. However,
we do not believe these significant deficiencies are material weaknesses.

The significant deficiencies, as defined above, are summarized below with further explanations and Fund
Management’s responses in Exhibit I of this report.

Significant Deficiencies

Indirect Overhead Expenses of the National Seized Property Contractor are not Recorded and
Accounted for by the Fund to the Line Item Level (Repeat Condition)

Indirect overhead expenses of the national seized property contractor are not recorded and accounted for
by the Fund to the line item level. The Fund’s Property Custodian incurs costs on behalf of the Fund from
the time of seizure until the asset is ultimately disposed. Currently, only holding costs and direct selling
costs related to general property are captured in the Seized Assets and Case Tracking System
(SEACATS) at the line item level, but not the indirect costs.

Because the weakness impacts the control environment of the Fund and related lines of authority, and the
condition can impact equitable sharing expenses of the Fund, this should be remedied.

Post Inventory Updates To SEACATS Not Performed Timely

The inventory tracking system (SEACATS) was not updated timely with certain reconciling items
resulting from the physical inventory exercise conducted in July 2007. Certain inventory items that were
on the floor and not on the count sheets (add-ons) were not added, and some on the count sheets but not
on the floor (discrepancies) were not removed from SEACATS in a timely manner. Furthermore, timely
actions were not taken on some disposition orders. Certain items that were deemed destroyed, remitted or
sold on the disposition orders, were not confirmed to be destroyed, remitted or sold in accordance with
the instructions given on the disposition orders.

The status of seized and forfeited property in SEACATS may not be accurate. This may impair the
integrity of information for decision-making, management reporting and financial reporting.

We also noted other matters involving the internal control and its operation that we have reported to Fund
Management in a separate letter dated November 6, 2007.

                                                ********

Finally, with respect to internal control related to performance measures reported in Section I: Overview,
we obtained an understanding of the design of significant internal controls relating to the existence and
                                               SECTION III – OTHER REPORTS                               49
completeness assertions and determined whether they have been placed in operation, as required by
OMB Bulletin No. 07-04. Our procedures were not designed to provide an opinion on internal control
over reported performance measures, and, accordingly, we do not provide an opinion on such controls.

This report is intended solely for the information and use of the Management of the Fund, the U.S.
Department of the Treasury, OMB, the U.S. Congress, the Department of the Treasury Office of
Inspector General and the Government Accountability Office and is not intended to be, and should not be
used by anyone other than these specified parties. However, this report is a matter of public record and its
distribution is not limited.




November 6, 2007




50            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
        EXHIBIT I 


SIGNIFICANT DEFICIENCIES

1. INDIRECT OVERHEAD EXPENSES OF THE NATIONAL SEIZED PROPERTY
CONTRACTOR ARE NOT RECORDED AND ACCOUNTED FOR BY THE FUND TO THE
LINE ITEM LEVEL (REPEAT CONDITION)

Indirect overhead expenses of the national seized property contractor are not recorded and accounted for
by the Fund to the line item level. The Fund’s Property Custodian incurs costs on behalf of the Fund from
the time of seizure until the asset is ultimately disposed. Currently, only holding costs and direct selling
costs related to general property are captured in the Seized Assets and Case Tracking System
(SEACATS) at the line item level, but not the indirect costs.

The Budget and Accounting Procedures Act of 1950, Section 3512, Executive Agency's Accounting
System requires federal agencies to establish an internal control which ensures the safeguarding of assets
and the proper recording of revenues and expenditures. It is further reinforced by the Federal Manager's
Financial Integrity Act of 1982 (FMFIA) which requires that internal accounting and administrative
controls be established to provide reasonable assurances that revenues and expenditures applicable to
agency operations are properly recorded and accounted for to permit the preparation of accounts and
reliable financial and statistical reports and to maintain accountability over the assets. Additionally, the
Joint Financial Management Improvement Program’s (JFMIP) Seized Property and Forfeited Assets
Systems Requirements require seized property and forfeited assets systems to record costs incurred while
the asset is in custody, and costs incurred in disposition activities.

The Fund relies on the Property Custodian for providing asset specific expenses information.
Deficiencies in the system (SEACATS) that the Property Custodian uses preclude the capturing of certain
expense information at the asset level. Currently, only holding costs and direct selling costs related to
general property are captured in SEACATS at the line item level.

The Fund is unable to report total asset specific expenses in the inventory systems. Overhead costs of the
general property contract are not distributed to the line item level. The Fund’s asset management function
will deteriorate if the above conditions are allowed to continue, resulting ultimately in a lack of
accountability over the assets of the Fund. This is because revenue associated with the asset may be
overhead for purposes of equitable sharing, victim restitution and possibly other uses of the funds where
the calculation will result in a distribution of all resources after expenses. If expenses are understated,
the resulting distribution will be over-stated. This can damage the long-term viability of the Fund if
uncorrected and chronic in nature.

RECOMMENDATIONS

In view of the Fund’s acknowledgement of this condition and SEACATS’ inability to capture the
required information, we make the following recommendations:

   a. 	 For all common support costs not directly traceable to individual seizures, an allocation process
        needs to be developed and implemented. Indirect costs will have to be applied to the individual
        seizures. Direct and indirect costs will have to be added together to provide total costs per
        seizure.


                                EXHIBIT I – SIGNIFICANT DEFICIENCIES                                     51
     b.	 The Fund should vigorously pursue the enhancement of SEACATS system capabilities to record
         and report total expenses at the asset level.

MANAGEMENT RESPONSE

In FY 2007 the General Property Contract was transferred from EG&G to VSE. VSE is responsible for
ensuring their accounting systems meet all government requirements and is able to identify all revenue
and expenses and record all revenue and expenses properly. Management has met with VSE
representatives regarding their cost accounting methodology for identifying indirect costs to the line item
level. VSE is converting detailed billing data from the subcontractors and venders into a quality
controlled electronic format. VSE will validate all incoming invoices and supporting/backup materials to
verify that all charges are accurate and allowable. All supporting material is put through VSE’s Line
Item Cost Accounting Database. We believe VSE has made significant progress in this area and do not
believe this significant deficiency will be repeated in FY 2008.

Real Property indirect costs will be based on the percentage of effort required by the property and the
time property is held. The best method to record these indirect real property costs will be addressed as
soon as the personal property indirect costs allocation has been accomplished.

The Fund’s response has not been subjected to the auditing procedures applied in the audit of the
financial statements and accordingly, we express no opinion on it.




52            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
2.      POST INVENTORY UPDATES TO SEACATS NOT PERFORMED TIMELY

The inventory tracking system (SEACATS) was not updated timely with certain reconciling items
resulting from the physical inventory exercise conducted in July 2007. Certain inventory items that were
on the floor and not on the count sheets (add-ons) were not added, and some on the count sheets but not
on the floor (discrepancies) were not removed from SEACATS in a timely manner. Furthermore, timely
actions were not taken on some disposition orders. Certain items that were deemed destroyed, remitted or
sold on the disposition orders, were not confirmed to be destroyed, remitted or sold in accordance with
the instructions given on the disposition orders.

The Statement of Federal Financial Accounting Standards Number 3 (SFFAS No. 3), Accounting for
Inventory and Related Property, requires seized and forfeited property to be accounted for in property
management records so that reliable financial and statistical reports may be prepared. Furthermore, the
Seized Property and Forfeited Asset Systems Requirements published by the Joint Financial Management
Improvement Program emphasizes that the collection of accurate, timely, complete, reliable and
consistent information is necessary for the integrity of information for decision making.

The inventory tracking system was not updated to reflect that items were added on, destroyed, remitted or
sold in a number of cases, and no follow up to reflect that these changes occurred were performed on a
timely basis to ensure consistent, accurate and complete reporting.

The status of seized and forfeited property in SEACATS may not be accurate. This may impair the
integrity of information for decision-making, management reporting and financial reporting.

RECOMMENDATIONS

We recommend that:

     (1) SEACATS be updated promptly to reflect the results of physical inventories and other reviews
         and subsequent changes made in accordance with applicable disposition orders.

     (2) The seizing bureau representative should ensure that those items recommended for destruction,
         remittance or for sale, are actually carried out with updated information and documentation
         suggesting so.

MANAGEMENT RESPONSE

The seized general property contractor (VSE) represented to the Fund that SEACATS has already been
updated and all issues on the list submitted by TEOAF originating from the 100% physical inventory
have been resolved. Subsequent changes to SEACATS are made daily (each evening Monday through
Friday) in accordance with applicable disposition orders.

The Fund’s response has not been subjected to the auditing procedures applied in the audit of the
financial statements and accordingly, we express no opinion on it.



                               EXHIBIT I – SIGNIFICANT DEFICIENCIES                                   53
gka, P.C.
                                                          Certified Public Accountants | Management Consultants



1015 18th Street, NW
      Suite 200               Independent Auditor's Report on Compliance with Laws and Regulations
  Washington, DC
        20036               Inspector General
                            United States Department of the Treasury
   Phone: 202-857-1777 
    Washington, D.C.
    Fax: 202-857-1778 

 Website: www.gkacpa.com

                            We have audited the Principal Statements (balance sheet and the related statements of
                            net cost, changes in net position, and budgetary resources, hereinafter referred to as
                            “financial statements”) of the Department of the Treasury Forfeiture Fund (the Fund)
                            as of and for the year ended September 30, 2007, and have issued our report thereon
                            dated November 6, 2007. We conducted our audit in accordance with auditing
                            standards generally accepted in the United States of America; the standards applicable
                            to financial audits contained in Government Auditing Standards, issued by the
                            Comptroller General of the United States; and, applicable provisions of Office of
                            Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
                            Financial Statements.

                            The management of the Fund is responsible for complying with laws and regulations
                            applicable to the Fund. As part of obtaining reasonable assurance about whether the
                            Fund’s financial statements are free of material misstatement, we performed tests of its
                            compliance with certain provisions of laws and regulations, noncompliance with
                            which could have a direct and material effect on the determination of financial
                            statement amounts, and certain other laws and regulations specified in OMB Bulletin
                            No. 07-04, including the requirements referred to in the Federal Financial
                            Management Improvement Act (FFMIA) of 1996. We limited our tests of compliance
                            to these provisions and we did not test compliance with all laws and regulations
                            applicable to the Fund. Providing an opinion on compliance with certain provisions of
                            laws and regulations was not an objective of our audit and, accordingly, we do not
                            express such an opinion.

                            The results of our tests of compliance disclosed no instances of noncompliance with
                            laws and regulations discussed in the preceding paragraph, exclusive of FFMIA, that
                            are required to be reported under Government Auditing Standards or OMB Bulletin
                            No. 07-04.

                            Under FFMIA, we are required to report whether the Fund’s financial management
                            systems substantially comply with the Federal financial management systems
                            requirements, applicable Federal accounting standards, and the United States
                            Government Standard General Ledger at the transaction level. To meet this
                            requirement, we performed tests of compliance with FFMIA section 803(a)
                            requirements.
The results of our tests of FFMIA disclosed no instances in which the Fund’s financial management
systems did not substantially comply with the three requirements discussed in the preceding paragraph.

This report is intended solely for the information and use of the Management of the Fund, the U.S.
Department of the Treasury, OMB, the U.S. Congress, the Department of the Treasury Office of
Inspector General, and the Government Accountability Office and is not intended to be and should not be
used by anyone other than these specified parties. However, this report is a matter of public record and its
distribution is not limited.




November 6, 2007




                                                                                                         55
            SECTION IV 


REQUIRED SUPPLEMENTAL INFORMATION 

Intragovernmental Amounts – Assets (Dollars in thousands)


                                                     2007                                               2006
                                  Fund                                            Fund
                                 Balance      Accounts                           Balance         Accounts
                                   with      Receivable/                           with         Receivable/
     Partner Agency              Treasury     Advances          Investments      Treasury        Advances          Investments
 Departmental Offices            $      -    $         240      $       -       $       -       $          166     $        -

 Bureau of Public Debt                  -                   -       928,069             -                      -       672,180 


 Totals                          $      -    $         240      $   928,069     $       -       $          166     $   672,180




Intragovernmental Amounts – Liabilities (Dollars in thousands)


                                                                              2007            2006
                                                                            Accounts        Accounts
                                     Partner Agency                         Payable         Payable
                        Department of Justice                           $      11,955       $   12,582
                        Departmental Offices                                      178              513
                        Department of Homeland Security                         8,331            2,790
                        Fincen                                                      4                -
                        Internal Revenue Service                               13,014           14,573
                        Totals                                          $      33,482       $   30,458



Intragovernmental Amounts – Revenues and Costs (Dollars in thousands)

                                                     2007                                               2006

                                  Cost to Generate       Costs to Generate       Cost to Generate           Costs to Generate
                                     Exchange             Non-Exchange              Exchange                 Non-Exchange
                                 Intragovernmental      Intragovernmental       Intragovernmental          Intragovernmental
     Budget Functions                 Revenue                Revenue                 Revenue                    Revenue

Administration of
  Justice                        $               -      $             97,760    $                   -      $             80,009




56              TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
Intragovernmental Amounts – Non-exchange Revenue (Dollars in thousands):


                                                         2007                            2006
              Partner Agency                    In              Out             In              Out


 Department of Justice                     $         -      $           -   $        -      $          32 

 Department of Homeland Security                     -           24,322              -           22,528 

 Department of Treasury                              -            2,190              -            1,622 

 Internal Revenue Service                            -           13,250              -           17,235 

 Financial Crimes Enforcement Network                -                  -            -            2,300 

 Department of State                                 -                 36            -                 81 

 Department of Labor                                 -                125            -                 97 

 Central Intelligence Agency                         -                  -            -                830 

  Totals                                   $         -      $    39,923     $        -      $    44,725 





                            SECTION IV – REQUIRED SUPPLEMENTAL INFORMATION                              57
           SECTION V 



OTHER ACCOMPANYING INFORMATION 



           (Unaudited) 

                                   TREASURY FORFEITURE FUND 

                       Equitable Sharing Summarized by State and U.S. Territories 

                                 For the Year Ended September 30, 2007 

                                          (Dollars in Thousands) 

                                               (Unaudited) 


                                                       Currency                           Property
     State/U. S. Territories                            Value                              Value
 Alabama                                           $         185                      $           -
 Alaska                                                       24                                377
 Arizona                                                     519                                 94
 Arkansas                                                    182                                  -
 California                                                 5430                                387
 Colorado                                                    336                                  -
 Connecticut                                                 203                                  -
 D.C. Washington                                             187                                  -
 Delaware                                                     55                                  -
 Florida                                                   5,659                                219
 Georgia                                                     662                                  -
 Guam                                                          -                                  -
 Hawaii                                                      181                                  3
 Idaho                                                       132                                  -
 Illinois                                                    856                                 17
 Indiana                                                     291                                  -
 Iowa                                                          -                                  -
 Kansas                                                       17                                  -
 Kentucky                                                    308                                  3
 Louisiana                                                   158                                  2
 Maine                                                       573                                 85
 Maryland                                                  1,564                                  6
 Massachusetts                                               616                                198
 Michigan                                                    878                                 21
 Minnesota                                                     3                                 43
 Mississippi                                                  40                                  -
 Missouri                                                    118                                  -
 Montana                                                       -                                 10
 Nebraska                                                     55                                  -
 Nevada                                                      150                                  5
 New Jersey                                                  997                                  -
 New Hampshire                                                14                                  -
 New Mexico                                                    8                                  -
 New York                                                  8,377                                687
 North Carolina                                            2,419                                315 

 North Dakota                                                  -                                  -

 Ohio                                                      2,470                                 63
 Oklahoma                                                      4                                  1
 Oregon                                                      705                                 22
 Pennsylvania                                                578                                  -
 Puerto Rico                                                 466                                  -
 Rhode Island                                                  6                                  -
 South Carolina                                              369                                122
 South Dakota                                                  -                                  -
 Tennessee                                                    53                                  2
 Texas                                                    13,883                                551
 Utah                                                        202                                  -
 Subtotal carried forward                          $      49,933                      $       3,233


58            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
                                TREASURY FORFEITURE FUND 

                    Equitable Sharing Summarized by State and U.S. Territories 

                              For the Year Ended September 30, 2007 

                                      (Dollars in Thousands) 

                                           (Unaudited) 



                                                      Currency                             Property
   State/U. S. Territories                             Value                                Value

 Subtotal brought forward                         $      49,933                        $       3,233
 Vermont                                                     36                                    -
 Virgin Islands                                               -                                    -
 Virginia                                                 1,798                                   82
 Washington                                                 896                                3,353
 West Virginia                                               24                                    -
 Wisconsin                                                  835                                    2
 Wyoming                                                      -                                    -
         Totals                                   $      53,522                        $       6,670




Summarized above are the currency and property values of assets forfeited and shared with state and
local agencies and U.S. Territories participating in the seizure. This supplemental schedule is not a
required part of the financial statement of the Department of the Treasury Forfeiture Fund.
Information presented on this schedule represents assets physically transferred during the year and,
therefore, does not agree with total assets shared with state and local agencies in the financial
statements. In addition, the above numbers do not include the adjustment to present property
distributed at net realizable value.




                             SECTION V – OTHER ACCOMPANYING INFORMATION                               59
                            TREASURY FORFEITURE FUND 

          Uncontested Seizures of Currency and Monetary Instruments Valued Over 

           $100,000, Taking More Than 120 Days from Seizure to Deposit in Fund 

                          For the Year Ended September 30, 2007 

                                   (Dollars in Thousands) 



31 U.S.C. 9703(f)(2)(E) requires the Secretary of the Treasury to report annually to Congress
uncontested seizures of currency or proceeds of monetary instruments over $100,000, which were not
deposited in the Department of the Treasury Forfeiture Fund within 120 days of the seizure date.
There were no administrative seizures over $100,000 over 120 days old for all bureaus in FY 2007.




60        TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
                                 TREASURY FORFEITURE FUND 

                         Analysis of Revenue and Expenses and Distributions 

                              For the Year Ended September 30, 2007 

                                       (Dollars in Thousands) 


 Revenue, Expenses and Distributions by Asset Category:
                                                                                             Expenses and
                                                                                  Revenue    Distributions

 Vehicles                                                                     $    15,860    $     35,384
 Vessels                                                                            4,405          45,082
 Aircraft                                                                           4,405          14,524
 General Property                                                                  14,097         143,094
 Real Property                                                                     49,341           5,604
 Currency and monetary instruments                                                298,662         143,082
                                                                                  386,770         386,770
 Less:
   Mortgages and claims                                                           (10,046)       (10,046)
   Refunds                                                                        (10,731)       (10,731)
 Add:
   Excess of net revenues and financing sources over total program expenses             --             --

 Total                                                                        $ 365,993      $    365,993


 Revenues, Transfers, Expenses and Distributions by Type of Disposition:
 Sales of property and forfeited currency and monetary instruments                334,048          73,487
 Reimbursed storage costs                                                           4,788          38,677
 Assets shared with state and local agencies                                       32,743          32,743
 Assets shared with other federal agencies                                          9,806           9,806
 Assets shared with foreign countries                                                 514             514
 Victim Restitution                                                                 4,871           4,871
 Destructions                                                                           --         46,412
 Pending disposition                                                                    -         180,260
                                                                                  386,770         386,770
 Less:
   Mortgages and claims                                                           (10,046)       (10,046)
   Refunds                                                                        (10,731)       (10,731)
 Add:
   Excess of net revenues and financing sources over total program expenses             --             --

 Total                                                                        $ 365,993      $    365,993

The revenue amount of $365,993 is from the Statement of Net Position. This supplemental schedule
“Analysis of Revenues, Expenses and Distributions” is required under the Treasury Forfeiture Fund
Act of 1992. Because the Fund does not have a cost accounting system, the method used does not
provide reliable information in the analysis of revenue and expenses and distributions by type of
disposition. The information is presented to comply with the requirements of the Treasury
Forfeiture fund Act of 1992.




                          SECTION V – OTHER ACCOMPANYING INFORMATION                                        61
                              TREASURY FORFEITURE FUND
                           Information Required by 31 U.S.C. 9703(f)
                            For the Year Ended September 30, 2007
                                    (Dollars in Thousands)

The Treasury Forfeiture Fund Act of 1992, 31 U.S.C. 9703(f), requires the Secretary of the Treasury
to transmit to Congress, no later than February 1, of each year, certain information. The following
summarizes the required information.

(1)    A report on:

       (A) The estimated total value of property forfeited with respect to which funds were not
           deposited in the Department of the Treasury Forfeiture Fund during the preceding
           fiscal year under any law enforced or administered by the Department of the
           Treasury law enforcement organizations of the United States Coast Guard, in the
           case of fiscal years beginning after 1993.

           As reported in the audited financial statements, at September 30, 2007, the Fund had
           forfeited property held for sale of $74,146. The realized proceeds will be deposited in the
           Fund when the property is sold.

           Upon seizure, currency and other monetary instruments not needed for evidence in
           judicial proceedings are deposited in a U.S. Customs Service (Customs) suspense
           account. Upon forfeiture, it is transferred to the Treasury Forfeiture Fund. At September
           30, 2007, there was $28,471 of forfeited currency and other monetary instruments that
           had not yet been transferred to the Fund. This is reported as a part of “Cash and Other
           Monetary Assets” in the audited financial statements.

       (B) The estimated total value of all such property transferred to any state or local law
           enforcement agency.

           The estimated total value of all such property transferred to any state or local law
           enforcement bureau is summarized by state and U.S. territories. Total currency
           transferred was $53,522 and total property transferred was $6,670 at appraised value.

(2)    A report on:

       (A) The balance of the Fund at the beginning of the preceding fiscal year.

           The total net position of the Treasury Forfeiture Fund on September 30, 2006 which
           became the beginning balance for the Fund on October 1, 2006, as reported in the audited
           financial statements is $236,757.

       (B) Liens and mortgages paid and the amount of money shared with federal, state, local
           and foreign law enforcement bureaus during the preceding fiscal year.

           Mortgages and claims expense, as reported in the audited financial statements, was
           $10,046. The amount actually paid on a cash basis was not materially different.

62        TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
                       TREASURY FORFEITURE FUND
                    Information Required by 31 U.S.C. 9703(f)
                     For the Year Ended September 30, 2007
                             (Dollars in Thousands)

    The amount of forfeited currency and property shared with federal, and distributed to
    state, local and foreign law enforcement bureaus as reported in the audited financial
    statements was as follows:

                 State and local                           $32,743
                 Foreign countries                             514
                 Other federal agencies                      9,806
                 Victim restitution                          4,871

(C) The net amount realized from the operations of the Fund during the preceding fiscal
    year, the amount of seized cash being held as evidence, and the amount of money
    that has been carried over into the current fiscal year.

    The net cost of operations of the Fund as shown in the audited financial statements is
    $153,506.

    The amount of seized currency not on deposit in the Fund’s suspense account at
    September 30, 2007, was $48,082. This amount includes some funds in the process of
    being deposited at yearend; cash seized in August or September 2007 that is pending
    determination of its evidentiary value from the U.S. Attorney; and the currency seized for
    forfeiture being held as evidence.

    On a budgetary basis, unobligated balances as originally reported on the Office of
    Management and Budget Reports, SF-133, “Report on Budget Execution” was
    approximately $160,117 for fiscal year 2007.

(D) Any defendant’s property not forfeited at the end of the preceding fiscal year, if the
    equity in such property is valued at $1 million or more.

    The total approximate value of such property for the Treasury Forfeiture Fund, at
    estimated values determined by bureau and contractor’s officials, and the number of
    seizures is as follows:

       CBP                                        $180,248         31 seizures
       IRS                                         280,175        111 seizures
       U.S. Secret Service                           7,552          5 seizures
       ATF                                          14,291          6 seizures

(E) The total dollar value of uncontested seizures of monetary instruments having a
    value of over $100,000 which, or the proceeds of which, have not been deposited into
    the Fund within 120 days after the seizure, as of the end of the preceding fiscal year.

    The total dollar value of such seizures is $0. This is also documented on page 60.

                SECTION V – OTHER ACCOMPANYING INFORMATION                                 63
                           TREASURY FORFEITURE FUND
                        Information Required by 31 U.S.C. 9703(f)
                         For the Year Ended September 30, 2007
                                 (Dollars in Thousands)

     (F) The balance of the Fund at the end of the preceding fiscal year.

         The total net position of the Fund at September 30, 2007, as reported in the audited
         financial statements is $361,387.

     (G) The net amount, if any, of the excess unobligated amounts remaining in the Fund at
         the end of the preceding fiscal year and available to the Secretary for Federal law
         enforcement related purposes.

         There is no cap on amounts that can be carried forward into Fiscal Year 2008 per the
         fiscal year 1997 Omnibus Appropriations Act (PL 104-208).

     (H) A complete set of audited financial statements prepared in a manner consistent with
         the requirements of the Chief Financial Officers Act of 1990.

         The audited financial statements, including the Independent Auditor’s Report, is found in
         Section II.

     (I) An analysis of income and expense showing revenue received or lost: 	(i) by property
         category (such as general property, vehicles, vessels, aircraft, cash, and real
         property); and (ii) by type of disposition (such as sale, remission, cancellation,
         placement into official use, sharing with state and local agencies, and destruction).

         A separate schedule is presented on page 61.




64      TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2007
